<html>
<title> - THE PROTECTIVE FORCES AT THE DEPARTMENT OF ENERGY</title>
<body><pre>[Senate Hearing 111-893]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-893
 
           THE PROTECTIVE FORCES AT THE DEPARTMENT OF ENERGY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2010

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
65-006                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1572657a55766066617d7079653b767a783b">[email&#160;protected]</a>  

  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                 E. BENJAMIN NELSON, Nebraska, Chairman

ROBERT C. BYRD, West Virginia        DAVID VITTER, Louisiana
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 JAMES M. INHOFE, Oklahoma
MARK UDALL, Colorado                 LINDSEY GRAHAM, South Carolina
MARK BEGICH, Alaska                  SCOTT P. BROWN, Massachusetts
JEFF BINGAMAN, New Mexico

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

           The Protective Forces at the Department of Energy

                             march 3, 2010

                                                                   Page

Aloise, Eugene E., Director, Office of Natural Resources and 
  Environment, Government Accountability Office..................     3
Podonsky, Glenn S., Director, Office of Health, Safety, and 
  Security, Department of Energy.................................    57
Stumbo, Mike, President, National Council of Security Police.....    62

                                 (iii)


           THE PROTECTIVE FORCES AT THE DEPARTMENT OF ENERGY

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Ben Nelson, Begich, and 
Vitter.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Daniel A. Lerner, 
professional staff member; and Diana G. Tabler, professional 
staff member.
    Staff assistants present: Kevin A. Cronin and Paul J. 
Hubbard.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Lindsay Kavanaugh, assistant to 
Senator Begich; Sandra Luff, assistant to Senator Sessions, and 
Michael T. Wong, assistant to Senator Vitter.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. Well, good afternoon. I think we'll go 
ahead and begin, because we're going to be up against the full 
Senate Armed Services Committee beginning at 4:30, and I don't 
want to delay getting to that. So, I call this hearing to 
order.
    Welcome to the hearing of the Subcommittee on Strategic 
Forces.
    I'd like to thank our witnesses for their flexibility in 
accommodating the scheduling needs of the full committee. We 
have an important briefing for the full committee, as I said, 
that we need to make time for, but had some difficulties in 
somehow getting things scheduled, but apparently we've been 
able to succeed.
    It's with great irony and pleasure that, after a 3-year 
stint as chairman of the Personnel Subcommittee, that I note 
the first hearing in my new role as chairman of the Strategic 
Forces Subcommittee is on a personnel matter once again. So, as 
Yogi Berra once said, it's like deja vu all over again; here we 
are.
    The Department of Energy (DOE) is responsible for the 
security of nuclear weapons on DOE sites, tons of weapons-grade 
materials, mostly highly-enriched uranium and plutonium, and 
various weapons parts at various locations across the country. 
Even a small amount of this material, in the hands of a 
terrorist, could lead to a horrific result.
    After the tragedy of September 11, 2001, the DOE reviewed 
the security of these sites, and their vulnerability to a 
terrorist attack, and came to the conclusion that the security 
needed to be increased. As a result, DOE adopted a new approach 
for the protective forces, shifting many of them to tactical 
response forces akin to a SWAT team. These new teams were 
trained in offensive combat tactics to move, train, 
communicate, and fight as a team. This was a major shift from 
the previous defensive posture that was taken at the sites. 
With this new focus came new rigorous training and other 
requirements which were not uniformly implemented at the 
various sites and, where implemented, became an issue for the 
protective forces. While the protective forces fully supported 
the need for the increased security, it quickly became apparent 
that the new requirement would be progressively difficult for 
older guard personnel to meet.
    At the same time, DOE had decided to reduce post-retirement 
healthcare benefits and eliminate defined-benefit retirement 
plans for new employees. This misalignment, as the GAO 
describes it, between the protective force personnel systems 
and the increased physical and other demands of a paramilitary 
operation, has become a significant concern, and one of the 
underlying causes for a 44-day strike at the Pantex plant in 
2007.
    The DOE protective forces are all contractors, with the 
management of the force varying from site to site. DOE orders 
establish the security requirements that each site must meet, 
but not how each site will meet those requirements. As a result 
of the growing concern over the protective forces, the security 
at the sites, and the strike at Pantex, this committee asked 
the Government Accountability Office (GAO) to conduct a 
comprehensive study of the management of the forces in the 
National Defense Authorization Act for Fiscal Year 2008.
    GAO completed this study on January 29, and today we'll 
hear from Eugene Aloise, GAO Director, Natural Resources and 
Environment, on the findings and recommendations in the study. 
Also with us, are Glenn Podonsky, the Director of the 
Department of Energy Office of Health, Safety, and Security 
(HSS), the DOE Security Policy and Oversight Office, who has 
worked on these issues for many years, and Mike Stumbo, 
President of the National Council of Security Police, the union 
representing over 2,600 members of the protective force.
    We welcome each of you this afternoon, and look forward to 
getting a clear understanding of the issues and difficulties of 
ensuring that the Nation's stockpile of nuclear weapons 
materials remains secure.
    When Senator Vitter arrives, we will ask him for any 
opening comments that we have.
    I would ask that each of our witnesses give a very short 
opening statement, perhaps 5 minutes, or thereabouts. We've 
received your prepared statements, and, without objection, they 
will all be included in the record, in their entirety.
    Mr. Aloise, we'll begin with you, followed by Mr. Podonsky, 
and later by Mr. Stumbo.
    Mr. Aloise.

  STATEMENT OF EUGENE E. ALOISE, DIRECTOR, OFFICE OF NATURAL 
  RESOURCES AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today to discuss issues with DOE's protective 
forces.
    Over 2,300 heavily-armed protective forces provide security 
for DOE and the National Nuclear Security Administration (NNSA) 
at 6 sites, with long-term missions to store and process 
weapons-grade nuclear materials, DOE's highest security threat.
    As mentioned, since September 11, DOE has sought to 
transform its protective forces into an elite fighting force, a 
tactical response force (TRF) with training and capabilities 
similar to the U.S. military. Protective force unions are 
concerned that TRF's more demanding requirements threaten the 
ability of the forces to work until retirement age.
    My remarks today are based on a recently issued report 
(GAO-10-275) which shows that contractor protective forces are 
not uniformly managed, organized, staffed, trained, equipped, 
or compensated across the six DOE sites. These differences 
exist because the forces operate under separate contracts and 
collective bargaining agreements at each site, and because of 
DOE's contracting approach, which allows each site to tailor 
security to site and mission needs.
    Since 2005, TRF has raised concerns in DOE security 
organizations, among protective force contractors, and force 
unions about the ability of the forces, especially older force 
members, to continue to meet DOE's weapons, physical fitness, 
and medical qualifications.
    Adding to these concerns are DOE's efforts to manage its 
long-term contractor post-retirement and pension liabilities 
which could negatively impact protective forces retirement 
eligibility and benefits. As mentioned, these concerns 
contributed to a 44-day strike in 2007 by protective forces at 
the Pantex plant, where the assembly and disassembly of nuclear 
weapons occurs.
    According to union officials, failure to resolve TRF and 
retirement benefit issues could lead to strikes at three sites 
with over 1,500 protective forces when their collective 
bargaining agreements end in 2012.
    Now, DOE has considered two principal options to more 
effectively manage its protective forces: improving the 
existing contractor system or creating a Federal protective 
force.
    In 2009, NNSA and DOE officials rejected federalization of 
protective forces because they believed it would be too costly 
and would provide little increase in security effectiveness. 
Instead, they supported the continued use of contractor forces, 
but with improvements.
    Our analysis shows that if the forces are well managed, 
either a contractor or a Federal force could result in 
effective and uniform security. Both options have offsetting 
advantages and disadvantages, with neither option emerging as 
clearly superior. A key disadvantage of the contractor system 
is the potential for strikes by contractor forces. However, 
according to NNSA's Administrator, strikes can be effectively 
managed by the use of replacement forces.
    Reliably estimating the cost to compare the two options 
proved difficult and precluded our detailed reporting on it. 
Because contractor and Federal forces could each have numerous 
permutations, choosing any particular option to assess would be 
arbitrary.
    In March 2009, DOE commissioned a group to recommend ways 
to improve the protective force contractor personnel system. In 
June of last year, the group made 29 recommendations designed 
to enable protective force members to reach a normal retirement 
age within the forces, take another job within DOE, or 
transition to a non-DOE career. To date, action by DOE on these 
recommendations has been limited.
    In our view, DOE and its protective force contractors have 
not successfully aligned protective force systems with the 
increased physical and other demands of TRF. Without better 
alignment, there is a greater potential for strikes and 
potential risk to site security when collective bargaining 
agreements expire.
    DOE's study group recommendations are a step forward: 
However, DOE faces the possibility of more strikes by its 
protective forces at some of its highest security-risk 
facilities if these issues are not resolved. Therefore, it is 
imperative that DOE resolve these issues soon, as recommended 
by our report and directed by the full committee in the 
National Defense Authorization Act for Fiscal Year 2010.
    Mr. Chairman, that concludes my remarks, and I would be 
happy to address any questions you or other members may have.
    [The prepared statement of Mr. Aloise follows:]

                   Prepared Statement by Gene Aloise

    Mr. Chairman and members of the subcommittee:
    I am pleased to be here today to discuss the Department of Energy's 
(DOE) contractor guards, also known as protective forces. My testimony 
is based on our recently released report Nuclear Security: DOE Needs to 
Address Protective Forces' Personnel System Issues \1\ and recent 
discussions with protective force union officials.
---------------------------------------------------------------------------
    \1\ GAO, Nuclear Security: DOE Needs to Address Protective Forces' 
Personnel System Issues, GAO-10-275 (Washington, DC: Jan. 29, 2010).
---------------------------------------------------------------------------
    Protective forces are a key component of security at DOE sites with 
special nuclear material (SNM), which the department considers its 
highest security risk. This material--including plutonium and highly 
enriched uranium--is considered to be Category I when it is weapons 
grade and in specified forms (e.g., nuclear weapons, nuclear weapons 
components, metals, and oxides) and quantities. The risks associated 
with Category I SNM include theft and the potential for sabotage 
through the use of a radioactive dispersal device, also known as a 
``dirty bomb.'' Currently, DOE and its National Nuclear Security 
Administration (NNSA), an agency within DOE responsible for the safety, 
security, and reliability of the U.S. nuclear weapons stockpile, have 
six contractor-operated sites that possess--and will possess for the 
foreseeable future--Category I SNM (sites with ``enduring'' 
missions).\2\ The six sites include four that NNSA is responsible for--
the Los Alamos National Laboratory, in Los Alamos, NM; the Y-12 
National Security Complex (Y-12), in Oak Ridge, TN; the Pantex Plant, 
near Amarillo, TX; and the Nevada Test Site, outside of Las Vegas, NV. 
In addition, DOE's Office of Environmental Management is responsible 
for the Savannah River Site, near Aiken, SC, and DOE's Office of 
Nuclear Energy is responsible for the Idaho National Laboratory, near 
Idaho Falls, ID.\3\
---------------------------------------------------------------------------
    \2\ We excluded three other DOE Category I SNM sites from our 
review because they are likely to downsize or downgrade their 
protective forces in the near future. These sites include the Office of 
Environmental Management's Hanford Site, near Richland, WA, which 
recently transferred its highest value Category I SNM off site but will 
maintain lower value Category I SNM for the foreseeable future; NNSA's 
Lawrence Livermore's National Laboratory, in Livermore, CA, which plans 
to transfer its Category I SNM off site by the end of fiscal year 2012; 
and the Office of Science's Oak Ridge National Laboratory, in Oak 
Ridge, TN, which plans to dispose of its Category I SNM by the end of 
fiscal year 2015.
    \3\ The Office of Environmental Management is responsible for 
cleaning up former nuclear weapons sites, and the Office of Nuclear 
Energy is primarily responsible for nuclear energy research.
---------------------------------------------------------------------------
    In the aftermath of the September 11, 2001, terrorist attacks, DOE 
embarked on a multifaceted effort to better secure its sites with 
Category I SNM against a larger and more sophisticated terrorist threat 
by changing policies, such as its Design Basis Threat (DBT)--a 
classified document that specifies the potential size and capabilities 
of adversary forces that the sites must defend against.\4\ Protective 
forces, which accounted for slightly more than 50 percent of DOE's $862 
million for field security funding in fiscal year 2008, also have been 
an important focus of DOE security improvements. DOE has sought to 
improve the effectiveness of its protective forces by deploying 
security technologies, such as sensors capable of detecting adversaries 
at long ranges, and through the use of advanced weaponry, such as belt-
fed machine guns and grenade launchers. In addition, DOE has sought to 
enhance protective forces' tactical skills--the ability to move, shoot, 
and communicate in a combat environment--through its Tactical Response 
Force (TRF) initiative.\5\ Among other things, TRF revised the 
application of DOE's existing protective force categories to emphasize 
tactical skills and instituted more rigorous weapons and physical 
fitness qualifications for many of DOE's protective forces.
---------------------------------------------------------------------------
    \4\ In 2008, DOE changed the name of its DBT (DOE Order 470.3A) to 
the Graded Security Protection policy (DOE 470.3B).
    \5\ DOE announced this initiative, originally known as ``Elite 
Force'' initiative in 2004, and began to formalize it into policy 
through the issuance of DOE Manual 470.4-3, Protective Force, in 2005. 
DOE revised this policy in 2006 with DOE Manual 470.4-3 Change 1, 
Protective Force. In 2008, DOE further revised this policy, which is 
now contained in DOE Manual 470.4-3A, Contractor Protective Force.
---------------------------------------------------------------------------
    However, protective force unions have been concerned that the 
planned implementation of TRF--with its potentially more demanding 
requirements--threatens the ability of protective forces to work until 
retirement age. These concerns contributed to a 44-day protective force 
strike at the Pantex Plant in 2007. The strike raised broader issues in 
DOE and Congress about the continued suitability of DOE's model for 
managing its protective forces. Unionized protective forces can strike 
when their collective bargaining agreements end, and strikes may create 
security vulnerabilities at DOE's sites with Category I SNM. In 
addition, DOE's practice of managing its protective forces through 
separate contracts at each site could create disparities in protective 
force performance, pay, and benefits. In 2009, a DOE protective forces 
study group, composed of DOE and union representatives, made a number 
of recommendations that, while maintaining contractor protective 
forces, may better balance protective forces' concerns over their 
careers with DOE's need to provide effective security and control 
costs.
    In this context, the National Defense Authorization Act for Fiscal 
Year 2008 directed us to report on the management of DOE's protective 
forces at its sites with Category I SNM.\6\ Among other things, we (1) 
analyzed information on the management, organization, staffing, 
training and compensation of protective forces; (2) examined the 
implementation of TRF; (3) assessed DOE's two options to more uniformly 
manage DOE protective forces; and (4) reported on DOE's progress in 
addressing protective force issues. Our recent report Nuclear Security: 
DOE Needs to Address Protective Forces' Personnel System Issues 
presents the full findings of our work and includes two recommendations 
to DOE to fully assess and implement, where feasible, recommendations 
made by DOE's 2009 protective forces study group. DOE generally agreed 
with these recommendations.
---------------------------------------------------------------------------
    \6\ Pub. L. No. 110-181 Sec.  3124 (2008).
---------------------------------------------------------------------------
    To obtain information on DOE's contractor protective forces, we 
visited three of the sites with enduring Category I SNM missions--
Pantex, the Savannah River Site, and Los Alamos National Laboratory--
because each site represented one of the three different types of 
protective force contracts currently in place. We also met with 
protective force contractors, Federal site office officials, and 
protective force union representatives at these sites. We also 
distributed a data collection instrument to protective force 
contractors and Federal site office officials at each of these sites 
and at the other three sites with enduring Category I SNM missions--Y-
12, the Nevada Test Site, and the Idaho National Laboratory. From this 
instrument, we received site information about the protective forces, 
the status of TRF and DBT implementations, views on DOE options for 
managing the protective forces, and the reliability of site data. Prior 
to this testimony, protective force union officials provided us with 
updated information.
    We conducted our work from April 2008 to March 2010 in accordance 
with generally accepted government auditing standards, which require us 
to plan and perform the audit to obtain sufficient, appropriate 
evidence to provide a reasonable basis for our findings and conclusions 
based on our audit objectives. We believe that the evidence obtained 
provides a reasonable basis for our findings and conclusions based on 
our audit objectives.

   PROTECTIVE FORCES ARE NOT UNIFORMLY MANAGED, ORGANIZED, STAFFED, 
                        TRAINED, OR COMPENSATED

    Contractor protective forces--including 2,339 unionized officers 
and their 376 nonunionized supervisors--are not uniformly managed, 
organized, staffed, trained, or compensated across the 6 DOE sites we 
reviewed. For example, we found the following:

        <bullet> Three different types of protective force contracts 
        are in use. These contract types influence how protective force 
        operations are overseen by Federal officials and how protective 
        force operations are coordinated with other site operations.\7\
---------------------------------------------------------------------------
    \7\ These types of contracts include: (1) direct contracts between 
protective force contractors and DOE or NNSA; (2) a component of 
management and operating (M&O) contracts between M&O contractors and 
DOE or NNSA; and (3) subcontracts between an M&O contractor and a 
protective force contractor.
---------------------------------------------------------------------------
        <bullet> The size of sites' protective forces ranges from 233 
        to 533 uniformed, unionized officers, and the composition of 
        these forces and their associated duties and responsibilities 
        vary based on their categorization. Protective forces are 
        divided into four categories: \8\
---------------------------------------------------------------------------
    \8\ Other positions, such as trainers and alarm operators, 
constitute the remaining 3 percent of protective force positions. At 
some sites, personnel in such positions may be SPO qualified, and their 
positions are counted in the appropriate SO categories. All protective 
force numbers were current as of September 30, 2008.

                <bullet> Security Officer (SO): Responsible for unarmed 
                security duties such as checking for valid security 
                badges. SOs represent about 5 percent of total 
                unionized protective forces.
                <bullet> Security Police Officer-I (SPO-I): Primarily 
                responsible for protecting fixed posts during combat. 
                SPO-Is represent about 34 percent of total unionized 
                protective forces.
                <bullet> SPO-II: Primarily responsible for mobile 
                combat to prevent terrorists from reaching their target 
                but can also be assigned to fixed posts. SPO-IIs 
                represent about 39 percent of total unionized 
                protective forces.

        <bullet> SPO-III: Primarily responsible for mobile combat and 
        special response skills, such as those needed to recapture SNM 
        (on site) and recover SNM (off site) if terrorists succeed in 
        acquiring it. SPO-IIIs are usually organized into special 
        response teams, and SPO-IIIs represent about 19 percent of 
        total unionized protective forces.
        <bullet> Each protective force has uniformed, nonunionized 
        supervisors, but the duties, responsibilities, and ranks of 
        these supervisors are generally site specific and not detailed 
        in DOE's protective force policies.
        <bullet> DOE policy mandates certain protective force training 
        but allows sites some flexibility in implementation. For 
        example, newly hired protective forces must complete DOE's 
        Basic Security Police Officer Training class, but these 
        courses, offered by each of the sites we reviewed, range in 
        length from 9 to 16 weeks. In addition, we found that one site 
        had largely completed the implementation of most aspects of the 
        TRF initiative, but others are not expecting to do so until the 
        end of fiscal year 2011.
        <bullet> Pay, based on the site and the category of protective 
        forces, ranges from nearly $19 per hour to over $26 per 
        hour.\9\ Overtime pay, accrued in different ways at the sites, 
        and other premium pay, such as additional pay for night shifts 
        and holidays, may significantly increase protective force pay.
---------------------------------------------------------------------------
    \9\ Pay rates were current as of September 30, 2008.
---------------------------------------------------------------------------
        <bullet> While all employers contributed to active protective 
        force members' medical, dental, and life insurance benefits, 
        they differed in the amount of their contributions and in the 
        retirement benefits they offered. In general, new hires were 
        offered defined contribution plans, such as a 401(k) plan, that 
        provides eventual retirement benefits that depend on the amount 
        of contributions by the employer or employee, as appropriate, 
        as well as the earnings and losses of the invested funds. At 
        the time of our review, two sites offered new hires defined 
        benefit plans that promised retirees a certain monthly payment 
        at retirement. Two other sites had defined benefit plans that 
        covered protective force members hired before a particular date 
        but were not open to new hires.

    We found two primary reasons for these differences. First, 
protective forces at all six of the sites we reviewed operate under 
separate contracts and collective bargaining agreements. Second, DOE 
has a long-standing contracting approach of defining desired results 
and outcomes--such as effective security--instead of detailed, 
prescriptive guidance on how to achieve those outcomes.\10\ While 
creating some of the differences noted, this approach, as we have 
previously reported, allows security to be closely tailored to site- 
and mission-specific needs.\11\
---------------------------------------------------------------------------
    \10\ DOE Order 251.1C, Departmental Directives Program, specifies 
that DOE directives should focus on results by specifying the goals and 
requirements that must be met and, to the extent possible, refraining 
from mandating how to fulfill the goals and requirements.
    \11\ Our recent review showed that DOE's policy for nuclear weapons 
security provides local officials with greater flexibility than the 
Department of Defense's policy for determining how to best meet 
security standards and has a greater emphasis on cost-benefit analysis 
as a part of the decisionmaking process. See GAO, Homeland Defense: 
Greater Focus on Analysis of Alternatives and Threats Needed to Improve 
DOD's Strategic Nuclear Weapons Security, GAO-09-828 (Washington, DC: 
Sept. 18, 2009).
---------------------------------------------------------------------------
 TACTICAL RESPONSE FORCE IMPLEMENTATION HAS RAISED CONCERNS ABOUT THE 
                 LONGEVITY OF PROTECTIVE FORCES CAREERS

    Since its inception in 2005, TRF has raised concerns in DOE 
security organizations, among protective force contractors, and in 
protective force unions about the ability of protective forces--
especially older individuals serving in protective forces--to continue 
meeting DOE's weapons, physical fitness, and medical qualifications. As 
we reported in 2005,\12\ some site security officials recognized they 
would have to carefully craft career transition plans for protective 
force officers who may not be able to meet TRF standards. Adding to 
these concerns are DOE's broader efforts to manage its long-term 
postretirement and pension liabilities for its contractors, which could 
have a negative impact on retirement eligibility and benefits for 
protective forces. In 2006, DOE issued its Contractor Pension and 
Medical Benefits Policy (Notice 351.1), which was designed to limit 
DOE's long-term pension and postretirement liabilities. A coalition of 
protective force unions stated that this policy moved them in the 
opposite direction from their desire for early and enhanced retirement 
benefits.
---------------------------------------------------------------------------
    \12\ GAO, Nuclear Security: DOE's Office of the Under Secretary for 
Energy, Science, and Environment Needs to Take Prompt, Coordinated 
Action to Meet the New Design Basis Threat, GAO-05-611 (Washington, DC: 
July 15, 2005).
---------------------------------------------------------------------------
    Concerns over TRF implementation and DOE's efforts to limit long-
term pension and postretirement liabilities contributed to a 44-day 
protective force strike at the Pantex Plant in 2007. Initially, Pantex 
contractor security officials designated all of the plant's protective 
force positions as having to meet a more demanding DOE combatant 
standard,\13\ a move that could have disqualified a potentially sizable 
number of protective forces from duty. Under the collective bargaining 
agreement that was eventually negotiated in 2007, some protective 
forces were allowed to meet a less demanding combatant standard. DOE 
has also rescinded its 2006 Contractor Pension and Medical Benefits 
Policy. However, according to protective force union officials, failure 
to resolve issues surrounding TRF implementation and retirement 
benefits could lead to strikes at three sites with large numbers of 
protective forces--Pantex, the Savannah River Site, and Y-12--when 
their collective bargaining agreements expire in 2012.
---------------------------------------------------------------------------
    \13\ DOE's combatant standards are defined by specific physical 
fitness, firearms, and medical qualifications. SPO-Is must meet 
defensive combatant standards, while SPO-IIs and SPO-IIIs must meet 
more demanding offensive combatant standards.
---------------------------------------------------------------------------
 EITHER IMPROVING THE EXISTING CONTRACTOR FORCES SYSTEM OR CREATING A 
  FEDERAL FORCE COULD RESULT IN MORE UNIFORM MANAGEMENT OF PROTECTIVE 
                                 FORCES

    To manage its protective forces more effectively and uniformly, 
over the past decades DOE has considered two principal options--
improving elements of the existing contractor system or creating a 
Federal protective force. We identified five major criteria that DOE 
officials, protective force contractors, and union officials have used 
to assess the advantages and disadvantages of these options.\14\ 
Overall, in comparing these criteria against the two principal options, 
we found that neither contractor nor Federal forces seems 
overwhelmingly superior, but each has offsetting advantages and 
disadvantages. Either option could result in effective and more uniform 
security if well-managed. However, we identified transitional problems 
with converting the current protective force to a federalized force.
---------------------------------------------------------------------------
    \14\ We reviewed five DOE studies completed between 1992 and 2009, 
as well as responses to our data collection instrument, to identify 
these criteria.
---------------------------------------------------------------------------
    When assessing whether to improve the existing contractor system or 
federalize protective forces, DOE, protective force contractors, and 
union officials have used the following five criteria:

        <bullet> A personnel system that supports force resizing and 
        ensures high-quality protective force members.
        <bullet> Greater standardization of protective forces across 
        sites to more consistently support high performance and ready 
        transfer of personnel between sites.
        <bullet> Better DOE management and oversight to ensure 
        effective security.
        <bullet> Prevention or better management of protective force 
        strikes.
        <bullet> Containment of the forces' costs within expected 
        budgets.
          Evaluating the two principal options--maintaining the current 
        security force structure or federalizing the security force--
        against these criteria, we found that if the forces are well-
        managed, either contractor or Federal forces could result in 
        effective and more uniform security for several reasons:
        <bullet> First, both options have offsetting advantages and 
        disadvantages, with neither option emerging as clearly 
        superior. When compared with a possible federalized protective 
        force, a perceived advantage of a contractor force is greater 
        flexibility for hiring or terminating an employee to resize the 
        forces; a disadvantage is that a contractor force can strike. 
        In contrast, federalization could better allow protective 
        forces to advance or laterally transfer to other DOE sites to 
        meet protective force members' needs or DOE's need to resize 
        particular forces, something that is difficult to do under the 
        current contractor system.
        <bullet> Second, a key disadvantage of the current contractor 
        system, such as potential strikes for contractor forces, does 
        not preclude effective operations if the security force is 
        well-managed. For instance, a 2009 memo signed by the NNSA 
        administrator stated that NNSA had demonstrated that it can 
        effectively manage strikes through the use of replacement 
        protective forces.
        <bullet> Third, distinctions between the two options can be 
        overstated by comparing worst- and best-case scenarios, when 
        similar conditions might be realized under either option. For 
        example, a union coalition advocates federalization to get 
        early and enhanced retirement benefits, which are available for 
        law enforcement officers and some other Federal positions, to 
        ensure a young and vigorous workforce. However, such benefits 
        might also be provided to contractor protective forces.
          Reliably estimating the costs to compare protective force 
        options proved difficult and precluded our detailed reporting 
        on it. Since contractor and Federal forces could each have many 
        possible permutations, choosing any particular option to assess 
        would be arbitrary. For example, a 2008 NNSA-sponsored study 
        identified wide-ranging federalization options, such as 
        federalizing all or some SPO positions at some or all 
        facilities or reorganizing them under an existing or a new 
        agency. In addition, DOE would have to decide on the 
        hypothetical options' key cost factors before it could 
        reasonably compare costs. For example, when asked about some 
        key cost factors for federalization, an NNSA Service Center 
        official said that a detailed workforce analysis would be 
        needed to decide whether DOE would either continue to use the 
        same number of SPOs with high amounts of scheduled overtime or 
        hire a larger number of SPOs who would work fewer overtime 
        hours. Also, the official said that until management directs a 
        particular work schedule for federalized protective forces, 
        there is no definitive answer to the applicable overtime rules, 
        such as whether overtime begins after 8 hours in a day. The 
        amount of overtime and the factors affecting it are crucial to 
        a sound cost estimate because overtime pay can now account for 
        up to about 50 percent of pay for worked hours.

 FEDERALIZING PROTECTIVE FORCES COULD CREATE DIFFICULTIES EITHER UNDER 
    CURRENT LAWS OR WITH SPECIAL PROVISIONS FOR ENHANCED RETIREMENT 
                                BENEFITS

    If protective forces were to be federalized under existing law, the 
current forces probably would not be eligible for early and enhanced 
retirement benefits and might face a loss of pay or even their jobs. 
For example:

        <bullet> According to officials at the Office of Personnel 
        Management (OPM) \15\ and NNSA's Service Center,\16\ if 
        contractor SPOs were federalized under existing law, they would 
        likely be placed into the Federal security guard (GS-0085) job 
        series. Although a coalition of unions has sought 
        federalization to allow members to have early and enhanced 
        retirement benefits, which allows employees in certain Federal 
        jobs to retire at age 50 with 20 years of service, Federal 
        security guards are not eligible for these benefits.
---------------------------------------------------------------------------
    \15\ OPM is the central human resources agency for the Federal 
government.
    \16\ NNSA's Service Center provides business, technical, financial, 
legal, human resources, and management support to NNSA site 
organizations.
---------------------------------------------------------------------------
        <bullet> Our analysis indicated transitioning protective force 
        members may receive lower pay rates as Federal security guards. 
        Contractor force members receive top pay rates that could not 
        generally be matched under the likely General Schedule pay 
        grades.
        <bullet> If protective forces were federalized, OPM officials 
        told us that current members would not be guaranteed a Federal 
        job and would have to compete for the new Federal positions; 
        thus, they risk not being hired. Nonveteran protective force 
        members are particularly at risk because competition for 
        Federal security guard positions is restricted to those with 
        veterans' preference, if they are available.

    According to OPM officials, legislation would be required to 
provide Federal protective forces with early and enhanced retirement 
benefits because their positions do not fit the current definition of 
law enforcement officers that would trigger such benefits. However, if 
such legislation were enacted, these benefits' usual provisions could 
create hiring and retirement difficulties for older force members. 
Older members might not be rehired because agencies are typically 
authorized to set a maximum age, often age 37, for entry into Federal 
positions with early retirement. In addition, even if there were a 
waiver from the maximum age of hire, older protective forces members 
could not retire at age 50 because they would have had to work 20 years 
to meet the Federal service requirement for ``early'' retirement 
benefits. These forces could retire earlier if they were granted credit 
for their prior years of service under DOE and NNSA contracts. However, 
OPM officials told us OPM would strongly oppose Federal retirement 
benefits being granted for previous years of contractor service 
(retroactive benefits). According to these officials, these retroactive 
benefits would be without precedent and would violate the basic concept 
that service credit for retirement benefits is only available for 
eligible employment at the time it was performed. Moreover, retroactive 
benefits would create an unfunded liability for Federal retirement 
funds.

 DOE SEEKS TO ADDRESS PROTECTIVE FORCE ISSUES BY REFORMING CONTRACTOR 
             FORCES, BUT PROGRESS HAS BEEN LIMITED TO DATE

    In a joint January 2009 memorandum, senior officials from NNSA and 
DOE rejected the federalization of protective forces as an option and 
supported the continued use of contracted protective forces--but with 
improvements. They concluded that, among other things, the transition 
to a Federal force would be costly and would be likely to provide 
little, if any, increase in security effectiveness. However, these 
officials recognized that the current contractor system could be 
improved by addressing some of the issues that federalization might 
have resolved. In particular, they announced the pursuit of an 
initiative to better standardize protective forces' training and 
equipment. According to these officials, more standardization serves to 
increase effectiveness, provide cost savings, and facilitate better 
responses to potential work stoppages. In addition, in March 2009, DOE 
commissioned a study group to recommend ways to overcome the personnel 
system problems that might prevent protective force members from 
working to a normal retirement age, such as 60 to 65, and building 
reasonable retirement benefits.
    In addition, NNSA established a Security Commodity Team to 
establish standardized procurement processes and to identify and test 
security equipment that can be used across sites. According to NNSA 
officials, NNSA established a common mechanism in December 2009 for 
sites to procure ammunition. In addition, to move toward more 
standardized operations and a more centrally managed protective force 
program, NNSA started a broad security review to identify possible 
improvements. As a result, according to NNSA officials in January 2010, 
NNSA has developed a draft standard for protective force operations, 
which is intended to clarify both policy expectations and a consistent 
security approach that is both effective and efficient.
    For the personnel system initiative to enhance career longevity and 
retirement options, in June 2009, the DOE-chartered study group made 29 
recommendations that were generally designed to enable members to reach 
a normal retirement age within the protective force, take another job 
within DOE, or transition to a non-DOE career. The study group 
identified 14 of its 29 career and retirement recommendations as 
involving low- or no-cost actions that could conceivably be implemented 
quickly. For example, some recommendations call for reviews to find 
ways to maximize the number of armed and unarmed positions that SPOs 
can fill when they can no longer meet their current combatant 
requirements. Other recommendations focus on providing training and 
planning assistance for retirement and job transitions. The study group 
also recognized that a majority (15 out of 29) of its personnel system 
recommendations, such as enhancing retirement plans to make them more 
equivalent and portable across sites, may be difficult to implement 
largely because of budget constraints.
    Progress on the 29 recommendations had been limited at the time of 
our review. When senior department officials were briefed on the 
personnel system recommendations in late June 2009, they took them 
under consideration for further action but immediately approved one 
recommendation--to extend the life of the study group by forming a 
standing committee. They directed the standing committee to develop 
implementation strategies for actions that can be done in the near term 
and, for recommendations requiring further analysis, additional 
funding, or other significant actions, to serve as an advisory panel 
for senior department officials. According to a DOE official in early 
December 2009, NNSA and DOE were in varying stages of reviews to 
advance the other 28 recommendations. Later that month, NNSA addressed 
an aspect of one recommendation about standardization, in part by 
formally standardizing protective force uniforms. In the Conference 
Report for the National Defense Authorization Act for Fiscal Year 2010, 
the conferees directed the Secretary of Energy and the Administrator of 
the NNSA to develop a comprehensive DOE-wide plan to identify and 
implement the recommendations of the study group.
    In closing, while making changes to reflect the post-September 11 
security environment, DOE and its protective force contractors through 
their collective bargaining agreements have not successfully aligned 
protective force personnel systems--which affect career longevity, job 
transitions, and retirement--with the increased physical and other 
demands of a more paramilitary operation. Without better alignment, in 
our opinion, there is greater potential for a strike at a site, as well 
as potential risk to site security, when protective forces' collective 
bargaining agreements expire. In the event of a strike at one site, the 
differences in protective forces' training and equipment make it 
difficult to readily provide reinforcements from other sites. Even if 
strikes are avoided, the effectiveness of protective forces may be 
reduced if tensions exist between labor and management. These concerns 
have elevated the importance of finding the most effective approach to 
maintaining protective force readiness, including an approach that 
better aligns personnel systems and protective force requirements. At 
the same time, DOE must consider its options for managing protective 
forces in a period of budgetary constraints. With these considerations 
in mind, DOE and NNSA have recognized that the decentralized management 
of protective forces creates some inefficiencies and that some systemic 
career and longevity issues are not being resolved through actions at 
individual sites. NNSA's standardization initiatives and 
recommendations made by a DOE study group offer a step forward. 
However, the possibility in 2012 of strikes at three of its highest 
risk sites makes it imperative, as recommended by our report and 
directed by the National Defense Authorization Act for Fiscal Year 
2010, that DOE soon resolve the issues surrounding protective forces' 
personnel system.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or other members of the 
subcommittee have.

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Ben Nelson. Okay.
    Senator Vitter, there are two votes starting at 2:45 p.m., 
so if we could, maybe we could finish the other opening 
statements, go vote, and then come back and you can give us 
some opening statements.
    Senator Vitter. Sure.
    Senator Ben Nelson. Okay.
    Mr. Podonsky.

  STATEMENT OF GLENN S. PODONSKY, DIRECTOR, OFFICE OF HEALTH, 
           SAFETY, AND SECURITY, DEPARTMENT OF ENERGY

    Mr. Podonsky. Mr. Chairman and Ranking Member Vitter, thank 
you for inviting me to testify about the Department of Energy's 
efforts to address the career-related concerns of our 
protective force.
    This hearing comes at a critical junction in the 
Department's longstanding efforts to evaluate the tactical 
capabilities of the protective forces supported by career and 
retirement opportunities commensurate with the professionalism 
we've come to expect.
    When the Department was created, protective forces were 
essentially industrial security gate guards. In the early 
1980s, the Department acknowledged the potential for more 
serious terrorist threats, and began a dramatic effort to ramp 
up the tactical capabilities of its protective forces. This was 
accompanied by increasing performance expectations for the 
protective force members. Compensation and benefits improved, 
but did not always keep pace with the increasing demands of the 
job.
    In the 1990s, cuts in the protective force numbers became 
part of the post-Cold War peace dividend. The events of 
September 11 ushered in a new focus on security across the DOE 
and the Nation, and a new emphasis on protective forces. The 
Department needed a security posture able to meet much greater 
challenges, including the need for more tactical capability 
security forces.
    In 2004, I recommended to Secretary Abraham that he create 
an initiative called the Elite Force, which included 
federalization of the protective force. The Elite Force concept 
is currently known as the DOE's TRF Initiative. The results, in 
terms of capabilities of this initiative, have been impressive, 
but a practical and affordable path towards improving 
protective force service as a career has not occurred.
    Studies conducted in 2004 identified federalization of the 
Department's protective force as the preferred option, but 
acknowledged that no realistic path forward toward this goal 
existed. The National Council of Security Police (NCSP) came to 
support federalization as a means of advancing its program for 
improved career progression and retirement benefits, but there 
still seemed to be no viable and affordable means for the DOE 
to actually implement this concept.
    Among the difficulties was the need for complex changes to 
legislation and regulations to enable a federalization process 
that would protect incumbents and/or classify personnel as law 
enforcement. At the time, congressional interest in making the 
complex legislative changes necessary was not apparent, so the 
Department felt that most of the major issues should be 
addressed in some manner under the current contract protective 
force model.
    In 2009, I chartered a broad-base protective force career 
options study group to address protective force concerns, 
composed of experts and DOE security professionals and leaders 
from the NCSP. That group made 29 recommendations. The GAO's 
January 2010 study (GAO-10-275) of protective force personnel 
issues seemed to support the recommendations by recommending 
that the Department respond to each of them.
    We have since created the Protective Force Career Options 
Committee to assist policy and line organizations in 
implementing the study group recommendations. The Department 
has drawn together its best expertise to develop an appropriate 
implementation plan for these recommendations.
    I would like to take a moment here just to offer a special 
thank you to the NCSP and the protective force union leaders 
for their dedicated and cooperative efforts over the last year 
to not only help us identify the problems, but also the 
potential solutions.
    Consistent with Secretary Chu's management principle to 
treat our people as our greatest asset, the Department's 
actions reflect a commitment to identify and promote efforts to 
ensure members of the protective forces are treated in a manner 
consistent with their vital role and in recognition of 
professional demands of that role entailing.
    While the Department can cite gains in implementing 
security initiatives that provide more robust asset protection, 
we have not yet made similar progress in efforts to address all 
concerns of the protective force members regarding career 
prospects and related issues.
    Much of the lack of progress actually speaks to the 
complexity and difficulty in resolving these issues. The DOE 
and NNSA are, in fact, addressing the recommendations 
associated with response planning, deployment strategy, force 
restructuring, training needs, and standardization of 
protective force weapons, equipment, and uniforms. Our national 
training center in Albuquerque is developing the curricula for 
protective force career progression and career transition 
training.
    My office is also in the process of reviewing 
recommendations dealing with protective force physical fitness 
standards, medical requirements, and human reliability program.
    Most of the remaining recommendations involve the very 
difficult issue of retirement, mobility among contractors, 
disability retirement, and retraining and placement outside the 
protective force. These areas are further complicated because 
they are mostly defined in collective bargaining agreements 
between the contractors and the unions.
    The Department should explore ways to craft a 
comprehensive, standardized approach to protective force career 
progression and retirement issues that will ensure that 
protective force members, regardless of location, are treated 
equitably and with the assurance that neither age nor injury 
will unfairly disadvantage them, in comparison with the larger 
departmental workforce.
    For example, Mr. Chairman, the Department could consider 
pursuing a program similar to the benefits allowed for 
beryllium workers under 10 CFR 850. That would provide 
retraining and transfer or 2 years' saved pay benefits to 
protective force personnel who are injured or are otherwise 
unable to meet physical standards.
    While my office will continue to assist in resolving these 
complex issues, by their very nature and inherent cost and 
contractual implications, alternate resolution is clearly 
within the purview of the line management. In this regard, I 
should also emphasize that line management is also deeply 
engaged alongside HSS, my organization, in this task.
    In conclusion, the protective force is critical to DOE's 
overall protection, and it is the Department's and the Nation's 
best interest to ensure that protective force personnel are 
treated equitably, and that their legitimate concerns are 
addressed to the greatest possible extent.
    We conducted studies on this topic in 1992, 1997, 2004, and 
2008. DOE is moving to address those issues that can be 
resolved within existing operation on resource constraints. 
Fair resolutions to the more complex and difficult issues will 
require cooperation and compromise by all the principals 
involved--line management, the unions, and Congress.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Podonsky follows:]

                Prepared Statement by Glenn S. Podonsky

    Mr. Chairman and members of the committee: thank you for inviting 
me to testify on the Department of Energy's (DOE) efforts to deal with 
the interdependence and complexity of protective force personnel 
issues, contracting requirements, and security needs at our national 
security facilities. Specifically, we must fairly address the 
reasonable concerns of protective force personnel for clear and 
attainable career paths to retirement, yet also balance those desires 
with the Department's need to maintain forces capable of securing our 
facilities in a cost effective manner. The Department has been pursuing 
ways to address these overlapping needs for many years.

                               BACKGROUND

    As early as 2003, my office recognized a number of concerns 
associated with the Department's contractor protective force model. 
Some concerns were expressed by protective force members and their 
unions, and others by the Department's security and line managers. 
Personnel concerns included issues such as the lack of a career path 
that protective force personnel could reasonably be assured of until 
retirement, nominally at age 65, as well as the lack of alternative 
positions available to personnel who, due to job-related injuries, 
other disabilities, or advancing age, could no longer meet the physical 
standards required for armed positions. Management's concerns with the 
contractor force model included the very real potential for protective 
force strikes at the expiration of collective bargaining agreements and 
the inefficiencies associated with a lack of standardization among 
protective forces' weapons, equipment, and training.
    The opportunity to consider and, hopefully, act on these issues was 
one factor in our efforts to have then Secretary Abraham include 
protective force upgrades prominently in his May 2004 comprehensive 
package of security initiatives. The protective force element of the 
security initiative was referred to at the time as the ``elite force'' 
initiative and recognized the need to respond to revised perceptions of 
the post-September 11 threat environment by transitioning some 
protective force elements toward a more combat-capable status that 
included mobile response and increased offensive combat capabilities.
    In response to the Deputy Secretary's June 2004 direction to 
develop options to implement the elite force initiative--direction 
which specifically included examining possible federalization of 
protective forces--my office and the National Nuclear Security 
Administration (NNSA) tasked a Protective Force Working Group to study 
the inherent issues. The Working Group issued papers in August and 
October 2004, and their recommendations included federalization of the 
protective forces. The Working Group's federalization position was 
based on perceived principles associated with elevating protective 
forces to levels of equal status and capability with the nation's elite 
military units; it was not accompanied by a cost/benefit analysis or a 
plan for achieving federalization. Initial analysis of the 
federalization issue indicated that while federalization offered 
potential benefits, it also posed significant difficulties.
    Based largely on the results of the working group, in January 2005 
the Department identified its chosen path forward for implementing the 
elite force initiative. Phase I included actions to enhance policy, 
tactical planning, training and readiness, physical standards, and use 
of security technology. The issue of federalization was deferred, to 
avoid creating instability during a time of already profound change 
affecting the protective forces, and also because the Department had 
concluded that the major benefits of federalization could be achieved 
within the contractor protective forces model so long as the 
contractors and the unions supported the effort to establish and 
maintain an elite force.
    In March 2006, the Department promulgated major policy changes to 
implement the elite force concept, which had become known as the 
Tactical Response Force concept. Initial misinterpretation of these 
changes led to perceptions that a much larger proportion of protective 
force personnel would be compelled to meet the more demanding offensive 
combatant physical standard. This prospect caused concern among some 
protective force personnel and their unions; the changes were seen as 
exacerbating longstanding concerns regarding the ability of aging or 
disabled personnel to meet increased physical performance requirements, 
and hence to remain on the job until retirement age. Protective forces 
unions voiced increasing support for federalization in the belief that 
it would include provisions for an early retirement program as well as 
other benefits associated with existing Federal law enforcement 
programs. A strike by the Pantex Guard Union in the spring of 2007 was 
influenced in part by a narrow interpretation of the new requirements 
of the proposed Tactical Response Force.
    In March 2008, NNSA received the results of a study--``Comparative 
Analysis of Contractor and Federal Protective Forces At Fixed Sites''--
it had commissioned to examine the contract force/federalization issue. 
In June 2008 NNSA received a follow on ``Cost Analysis and Modeling'' 
supplement to the initial report. The study and supplement concluded 
that key union assumptions about federalization--such as 20 year 
retirement, automatic hiring of incumbents, and portability or 
grandfathering of retirement benefits--could not occur under current 
law; converting contract protective forces ``en masse'' to Federal 
forces would require extensive new legislation.
    As the issue of federalization was examined, it became clear that 
federalization would be difficult and would potentially have negative 
consequences for many current protective force members. Federalization 
of the private sector contractor force would require more complex 
legislation, for example, than had an earlier successful effort to give 
nuclear materials couriers, who were already Federal employees, 
retirement benefits equivalent to law enforcement officers under the 
Civil Service Retirement System and the Federal Employees' Retirement 
System.
    The NNSA-commissioned analyses also confirmed that many of the 
concerns associated with the contract force model could be addressed 
constructively within that model. DOE management including NNSA, 
decided not to pursue federalization, but rather to address identified 
problems within the private, contractor force model. In January 2009, 
the Deputy Secretary was informed of the proposed path forward--not to 
federalize the protective forces but to implement standardized 
procedures and practices at NNSA Category I facilities which would 
provide the major benefits of federalization while maintaining 
contractor protective forces.
    Although the Department does not consider the federalization model 
the best option for meeting its security needs, it remains committed to 
addressing the major career path and retirement-related concerns of its 
contractor protective forces, as expressed through their unions and the 
National Council of Security Police, an umbrella organization made up 
of DOE protective force bargaining units. Consequently, in March 2009 
the Office of Health, Safety and Security commissioned a Protective 
Force Career Options Initiative Study Group to examine realistic and 
reasonable options for improving the career opportunities and 
retirement prospects of protective force members while maintaining a 
robust and effective security posture. Response to this initiative was 
positive: representation on the Study Group included the National 
Council of Security Police (represented in the hearing today by Mike 
Stumbo), my office, NNSA, and other DOE headquarters program offices. 
In June of last year, the Study Group made 29 recommendations; 14 are 
considered to be cost neutral and achievable under existing governance 
structures while the other 15 involve additional program costs and/or 
changes to existing management and contractual approaches. The National 
Defense Authorization Act for Fiscal Year 2010 requires the Department 
to develop and submit to Congress by April 30, 2010, a comprehensive 
Department-wide plan to implement the Study Group recommendations. We 
intend to submit that plan on time.
    In July 2009, and consistent with one of the Study Group 
recommendations, we created the Protective Force Career Options 
Committee as a standing committee tasked with continuing the work of 
the Study Group by assisting DOE in implementation of the Study Group's 
recommendations.
    In January 2010, the Government Accountability Office (GAO) 
published the results of a Congressionally mandated study of the 
management of DOE protective forces. The GAO study recommends that DOE 
respond to the 29 recommendations of the DOE Study Group by developing 
and executing implementation plans for those recommendations identified 
as low- or no-cost, and by planning and conducting research to identify 
the most beneficial and financially feasible options for implementing 
the remaining recommendations that may involve substantial costs or 
contractual and organizational changes. The Department has concurred 
with the findings and recommendations of the GAO report.

                             CURRENT STATUS

    This brings us to the current status of our efforts to address the 
situation and my assessment of what we have accomplished and what 
remains to be accomplished. First, the Office of Health, Safety and 
Security remains committed to assisting the Department in providing 
levels of security at our facilities that are consistent with the 
assets in our custody and our understanding of the most current 
national threat environment. That commitment includes an effort to 
identify and promote the necessary actions to ensure that the 
protective forces are treated in a manner consistent with their vital 
role and the heavy professional demands it imposes.
    The Department has made significant progress at considerable cost 
in its efforts to provide its protective forces with the tactical and 
technical tools required to implement the Tactical Response Force 
concept and ensure mission success; some of those efforts remain works 
in progress. The Department has made significant investments in 
physical security upgrades such as barriers, advanced sensor systems, 
and hardened defensive positions; in advanced, more capable and longer 
range weapons systems and tactical equipment; in defensive strategies 
and tactical planning to field the Tactical Response Force concept to 
advantage; and in tactical training to improve the skills of the 
personnel who will comprise the Tactical Response Force. These upgrades 
are designed to increase the tactical effectiveness of the protective 
forces while decreasing their vulnerability to adversary actions.
    Implementation of the Tactical Response Force concept as well as 
the weapons and equipment upgrades and personnel training have varied 
from site to site, as expected; some sites continue to adjust their 
implementation efforts to better align with local conditions. This 
remains an ongoing process with more work to be done at some sites 
before they will have fully integrated the old and new approaches.
    The Department has made clear gains in implementing security 
initiatives that provide more robust asset protection and mission-
related advantages to protective force personnel. The Department has 
not made similar progress, however, in its efforts to address the 
concerns of protective force members regarding their career prospects 
and retirement issues. The Tactical Response Force concept includes a 
requirement for career progression planning for each protective force 
member, although many individual plans are still outstanding.
    I would like to take a minute here to emphasize that our lack of 
progress in some areas does not reflect a lack of commitment or effort 
on our part, but rather reflects the complexity and difficulty of 
determining and maintaining the most appropriate and fair balance among 
issues which affect the well-being of the protective forces and the 
success of our mission to provide highest quality, cost effective 
security. The Department's efforts are and will continue to be aligned 
with the Study Group's 29 recommendations. The Study Group, in fact, 
has evolved into the Protective Force Career Options Committee, 
referenced earlier in this testimony.
    The NNSA, in whose facilities most of the protective forces serve, 
began a Zero Based Security Review in July 2009. This review is 
developing detailed analyses of security programs and needs at each 
NNSA facility, and is expected to be completed by the end of 2010. It 
is expected to provide information and analyses directly applicable to 
many of the Study Group's recommendations.
    In addition, DOE's National Training Center is currently conducting 
analyses and a curriculum development effort to support protective 
force career progression and career transition training. In conjunction 
with this effort, HSS is also working to modify an existing complex-
wide job register to better accommodate the specific needs of 
protective force personnel.
    Study Group recommendations dealing with protective force physical 
fitness standards, medical requirements, and the Human Reliability 
Program all involve requirements in the Code of Federal Regulations. To 
modify these requirements, the Department must go through a formal 
rulemaking process. The Office of Health, Safety, and Security has 
established a task team to oversee this process. The team is currently 
reviewing the physical fitness standards for proposed revision, has 
nearly completed a set of proposed revisions to the medical standards, 
and has a proposed revision of the Human Reliability Program regulation 
under review in the Department.
    Action on a few recommendations--retirement and (financial) 
retirement planning, portability/mobility among contractors, disability 
retirement, retraining and placement outside of protective forces, and 
various personnel services and actions--is proving difficult. While 
these recommendations pertain to issues of high importance to the 
protective forces and their unions, these are also issues covered in 
the collective bargaining agreements between the private sector 
contractors and the unions. Although the Department can establish the 
overall parameters for future contracts, the Department is prohibited 
by Federal Acquisition Regulations from interfering with collective 
bargaining agreements or dictating the terms of those agreements. Since 
each of the respective protective forces contractors and unions 
negotiate agreements based on their specific interests, significant 
differences exist in the terms and conditions of various contracts from 
site to site. The extent to which unions would be amenable to 
negotiating contracts with common clauses is unknown, although the 
Department would be willing to explore ways to accommodate such an 
effort through the parameters it establishes in future contracts. For 
example, the Department should consider establishing a program--similar 
to the benefits currently allowed for beryllium workers under 10 CFR 
850--that would provide retraining and transfer or 2 year save pay 
benefits for protective force personnel who are injured or otherwise 
unable to meet physical standards. HSS is currently working with line 
management with the goal of crafting a comprehensive, standardized 
approach to protective force career progression and retirement issues.

                               CONCLUSION

    Of the 29 recommendations, the Department is making good progress 
on those that can be resolved within DOE. We are also moving forward on 
those issues which can be addressed through rulemaking, although that 
process is slower. The Department is still seeking workable solutions 
to the more difficult problems which variously involve contracting and 
collective bargaining. As noted above, the Department intends to 
present a plan to implement all 29 recommendations to Congress in 
April. We recognize that the protective forces are a key element in the 
protection of our most sensitive national security assets. Fair 
resolution of the most difficult protective forces personnel issues 
will necessarily require cooperation and compromise by all parties. The 
Department also believes firmly that needed changes and improvements 
can be made within the contract protective forces model, and that it 
will benefit both the Department and protective forces personnel to 
work together to resolve all outstanding issues in as fair and fast a 
process as possible. The Department is committed to finding solutions 
that ensure the fair and equitable treatment of each protective force 
member.

    Senator Ben Nelson. Mr. Stumbo.

   STATEMENT OF MIKE STUMBO, PRESIDENT, NATIONAL COUNCIL OF 
                        SECURITY POLICE

    Mr. Stumbo. Mr. Chairman and members of the subcommittee, 
my name is Mike Stumbo. I'm pleased to be here to testify, at 
your request, on issues relating to the Department of Energy 
Protective Force.
    I proudly serve as a security police officer (SPO) at the 
Pantex site. Those of you that are not familiar with the Pantex 
site, it is the site of final assembly and disassembly of 
nuclear weapons here in the United States.
    I consider my job, like many of my fellow DOE SPOs, as 
continuing service to my country, defending against adversaries 
who are organized to destroy this country.
    I am also the president of the National Council of Security 
Police, commonly known as the NCSP. Our organization was formed 
by constituent unions as an active collective voice common to 
all DOE SPOs throughout the DOE enterprise. We provide 
unfiltered insight from the field. We call it the ``boots-on-
the-ground perspective.''
    For the past several years, we have focused on the question 
of Federalizing the protective force, which has been an area of 
extensive discussion and review within DOE for many years.
    As highlighted in the recent GAO report, there are 
significant personnel issues affecting the ability of the 
protective forces to perform their mission that cannot be 
compromised.
    On July 16, 1945, in the early morning hours, near 
Alamogordo, NM, a test code-named ``Trinity'' refashioned our 
world forever. The new weapon became the very fabric of our 
national defense and the primary deterrent of attack from our 
greatest enemies. Our government produces these weapons, and it 
is an inherent government function to protect them.
    Currently, the security of our Nation's nuclear weapons and 
weapons-grade material is contracted out to private security 
contractors. It is the private structure that has not allowed 
these exceptional men and women who protect these weapons of 
mass destruction the ability to enjoy terms and conditions of 
employment that support a shortened career, a career that 
demands the highest physical, medical, and training standards 
in any law enforcement arena.
    Quite frankly, new hires coming out of the military see 
these jobs as a continuation of military service in the private 
sector. But, quickly they find out that there is no incentive 
to make this a career. After investing time, money, and 
clearances, many transition to the law-enforcement 
opportunities that are career-based. This is not a novel or new 
issue; the conflicts that exist between profit versus security, 
when private companies protect nuclear assets, are inherent.
    It was identified in 1990, by the GAO (GAO/RC8D-91-12), to 
adopt federalization as a potential structure; again in 2004, 
by the Department of Energy, again to adopt federalization as 
potential structure. Shortly after that, the DOE chief health, 
safety, and security officer commissioned a team composed of 
DOE line management and NCSP leadership to address career 
opportunities and retirement prospects for SPOs. The 
recommended 29 options are captured in the 2010 GAO report. The 
NCSP commends HSS for having the courage to initiate this 
action among a great deal of controversy.
    Our jobs require a vigorous physical security force that 
must maintain stringent training and medical standards. It will 
require the best 20 years of our lives. We must maintain the 
highest level of security to protect the most powerful weapons 
known to mankind. In that 20 years, our bodies begin to break 
down--knees, ankles; our reactionary skills, target-recognition 
skills start to decrease--it's a natural order--not to mention 
the risk of exposure from radiation, chemicals, and beryllium. 
These hazards are not encountered by our other law-enforcement 
counterparts.
    What I ask of you today is to recognize the uniqueness and 
nature of our work, and the paramount importance of our mission 
to this country. There are three entities that perform the 
mission of protecting nuclear weapons and nuclear weapon-grade 
material: the military, DOE nuclear couriers, and DOE SPOs. 
Only one of those entities is outside of the Federal structure, 
and that is the DOE SPOs.
    Whether we choose to Federalize or maintain the private 
security contractor structure, we must adopt the Federal 
retirement components that support this vital mission. DOE SPOs 
deserve nothing less. Too much time has passed. There have been 
plenty of studies.
    In closing, I wish to thank the committee for giving me the 
opportunity to present our case on behalf of the NCSP. I'm 
prepared to answer any questions you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Stumbo follows:]

                   Prepared Statement by Mike Stumbo

    Mr. Chairman and members of the subcommittee, I am Mike Stumbo and 
am pleased to be here at your request to testify before you on issues 
relating to the Department of Energy (DOE) protective forces. I am one 
of them proudly serving as a security police officer at the Pantex 
Nuclear Site. I see my job as continuing service to my country by 
defending against adversaries who are organized to destroy our country, 
Today, I am here to represent all of the Protective Forces who proudly 
serve our country throughout the DOE Complex. I serve as the President 
of the National Council of Security Police, commonly known as the NCSP. 
Our organization was formed by constituent unions to act as a 
collective voice on matters that are common to all protective forces 
throughout the DOE Complex. Our mission is not to bargain on behalf of 
labor unions at the sites, but to speak on issues where we have first 
hand personal experience and provide unfiltered insight from the field. 
For the past several years, we have focused on the question of 
Federalizing the protective force which has been an area of extensive 
discussion and review within the DOE for many years. As highlighted in 
the recent Government Accountability Office (GAO) Report, there are 
significant personnel issues affecting the ability of the protective 
forces to perform their mission to standards that cannot be 
compromised. We believe the time is now to take the necessary steps to 
correct personnel issues which will insure a battle ready force; 
whether it is through federalization or some other form of legislative 
mandate which accomplishes the same results.
    On July 16, 1945 in the early morning hours near Alamogordo, NM, a 
test code named ``Trinity'' refashioned our world forever. This new 
weapon ended a war and has become the very fabric of our national 
defense and the primary deterrent to an attack from our greatest 
enemies. Our Government produces these weapons of mass destruction as 
part of our defense posture. There is no greater mission than to assure 
these weapons, and their components, are secured and protected so that 
every American can be assured our adversaries have NO access to them. 
The consequences of an event at one of these sites are so dire as to be 
unthinkable. We believe the securing and protection of our nuclear 
arsenal is an inherent government function and must be treated as such. 
Anything less is compromising the proper role of our government and in 
our judgment potentially compromising the security of our nuclear 
assets.
    Currently security of our Nation's nuclear weapons and weapons 
grade materials, which are stored at various facilities near population 
centers throughout the country, is contracted out to private security 
contractors. It is this private structure that has not allowed the 
exceptional men and women who protect this Nation to enjoy terms and 
conditions of employment commensurate with a shortened career resulting 
from the many requirements and demands of their jobs. In the field, 
this means many of the protective force become dissatisfied with their 
job as requirements increase and prospects for career progression or a 
secure retirement do not exist, As it relates to current employment, we 
are seeing a trend toward lowered job performance and increasing 
attrition rates. Quite frankly, new hires coming out of the military 
initially see these jobs as a continuation of military service in the 
private sector. However, once they have experienced the jobs, the jobs 
fall out of favor because there is very little incentive to make this a 
career, After investing all the time, money, and training necessary to 
attain full clearances, many of our qualified protective forces opt to 
transition to local law enforcement careers.
    This is not a new or novel issue. The conflicts of interest, 
including profit versus performance that are inherent when a private 
security company protects nuclear assets has been the subject of 
ongoing discussion and review. As far back as 1990, a GAO report began 
to unveil problems with securing nuclear weapons and weapons grade 
material within a private structure. This report resulted in no action 
after identifying the inherent problems. Years later, in 2004, the 
topic was re-addressed by a working group. I quote from the memo issued 
by the 2004 DOE Protective Force Working Group:
    Memorandum: ``The world-changing events of September 11, 2001, 
decisively subordinated the old industrial security model to a ``combat 
force'' model. This new standard carries profound legal and practical 
implications, all of which tend to support adoption of the Federal 
force option.''
    In 2004, the mandate was clear and the reasons were sound. Again, 
no action.
    Inexplicably, in 2009 the department changed its position yet again 
with a Memorandum dated January 13, 2009 to the acting Deputy Secretary 
of DOE stating ``that Federalizing the protective force is no longer a 
viable option''. The apparent overriding reasons were budgetary and the 
lack of any precedent of Federalizing a group which has been 
historically contracted out. What were not adequately addressed are the 
many serious security issues that relate to the decision to eliminate 
federalization as an option. In our view, the reasoning behind the 
change in direction is flawed. The time is now to right the ship and 
take corrective action to address the serious personnel issues faced by 
DOE.
    Due, in part, to NCSP's efforts, on March 31, 2009, the Chief 
Health, Safety, and Security Officer (HS-1) of the DOE commissioned a 
study to examine ``realistic and reasonable options for improving the 
career opportunities and retirement prospects of protective force 
members. With the support of both DOE line management and the 
leadership of the National Council of Security Police (NCSP), a study 
team was assembled under the leadership of the Office of Health, 
Safety, and Security. The result of the report is captured in the 
January 2010 GAO report'' Nuclear Security DOE Needs to Address 
Protective Forces' Personnel System Issues.''
    I commend the GAO and its staff who committed approximately 18 
months of resources identifying the facts of the current private DOE 
structure. One point that stands out in my mind which is captured in 
the 2010 GAO report is the advantages and disadvantages of a contractor 
structure. Upon a careful reading of Table 7, you will be hard pressed 
to find any rational basis for concluding that the contractor model has 
any ``real'' advantage. At the core of Federalizing protective forces 
is imposing more direct management and standardization throughout the 
complex. No one can argue these objectives will not better prepare 
protective forces to defend against the enemy. Equally important to the 
men and women who serve at our sites, there are Federal benefits which 
better serve them for a shortened law enforcement type career. I know 
from experience how the current system impacts my brothers and sisters. 
It is not uncommon for one of us to reach an age, well before a normal 
retirement age, where we can no longer meet the demands of the job. 
This may be because of an injury where we cannot meet medical 
requirements. Or, it may be just middle age setting in and we cannot 
meet the physical fitness requirements. Many good men and women have 
found themselves without their job and without a real retirement 
option. After giving the best 15 to 20 years of their working lives, 
these men and women find it difficult to survive in today's economy. We 
are looking for a way to give back to them, in some small way, what 
they have given to their country. We now do it for others serving our 
country and we should do it for our protective forces.
    The current protective force is not alone in its struggle to 
achieve a reasonable career path. DOE, in years past had approached the 
U.S. Office of Personnel Management (OPM) to determine if ``nuclear 
materials couriers'' were eligible for coverage under the ``law 
enforcement'' category for enhanced retirement benefits under the 
special ``20-Year'' benefits under the Civil Service Retirement System 
(CSRS) and the Federal Employees Retirement System (FERS). Nuclear 
couriers transport the nuclear materials we protect at the sites. The 
medical, physical training, and weapons requirements are nearly 
identical to the requirements and qualifications we must meet. The only 
significant difference in employment is nuclear couriers are Federal 
employees. OPM determined that nuclear materials couriers did not meet 
the definition of ``law enforcement'' for eligibility and coverage 
under the special 20-year retirement benefits.
    Despite this decision, the Department pursued and acquired 
congressional support for including nuclear materials courier positions 
under the special 20-year retirement provisions. Congress acknowledged 
the uniqueness and nature of the work performed by nuclear materials 
couriers, and accepted the Department's rationale for including this 
type of work under the enhanced special 20-Year retirement benefits. 
Consequently, a bill was introduced (1998 HR 3616) that later was 
passed and resulted in establishment of new legislation under Public 
Law 105-261. This law became effective on 10/17/98. The enactment of 
this law established a new category of positions, ``Nuclear Materials 
Courier,'' for inclusion under the enhanced retirement benefits for 
special 20-Year retirement under the CSRS and FERS retirement systems. 
The law authorized retroactive credit of service, for the purpose of 
establishing an entitlement to an annuity, back to the date the DOE was 
established. This date was October 1, 1977.
    I come to you today to again acknowledge the uniqueness of and 
nature of the work performed by the current DOE Security Police Force. 
We are required to maintain the most stringent physical, medical and 
training standards in the law enforcement area. Like nuclear couriers, 
we should have our own Federal classification recognizing the important 
duties and functions we perform for the citizens of our great nation. 
Three entities perform the task of securing nuclear weapons and nuclear 
grade material. They are the military, OST couriers, and DOE Security 
Police Officers. However only one of those entities is outside of a 
Federal structure, the men and women I am here speaking on behalf of, 
DOE Security Police Officers throughout the United States. This is not 
right!
    Our men and women are entrusted to protect the most powerful 
weapons known to mankind. Every workday, no matter how quiet it starts 
or how routine can turn, with or without warning into a terrorist 
attack. Our mission is to turn back and defend such an attack putting 
our lives on the line. There is no second line of defense. In addition 
to combat risks; working at nuclear sites exposes us to radiation, 
beryllium, and other chemicals that are potentially harmful to our 
health. We encounter daily risks not encountered by our counterparts in 
other law enforcement employment. My brothers and sisters who wear the 
DOE Protective Force badge are well aware of these risks and have 
chosen this service. We train, prepare, and are well equipped. We have 
wives, children, and parents who also know the risks and support us 
knowing how important the job we have is to our Nation. We simply are 
looking for a career path and retirement system which provides some 
reasonable measure of financial security when our job comes to an end.
    The current career structure that DOE security police officers must 
be reformed. Over the last 20 years multiple studies demonstrate the 
system is broken. There is no need for more studies or reviews. The 
time has come to fix the system by imposing personnel policies that 
carry out the long-term objectives of our mission. We believe the 
correct fix is Federalizing the protective forces. If that cannot be 
accomplished through legislation, at the very least there needs to be a 
legislative mandate requiring private contractors provide pension and 
retiree health and welfare benefits that mirror Federal benefits. For 
many years, we have been told budgetary restraints drive decisionmaking 
in this area. We disagree that security in this area can be compromised 
because of funding. However, there is a current opportunity to use 
available stimulus money to fund benefits for the protective force. I 
believe that is exactly what President Obama has in mind by allocating 
stimulus monies to DOE. It would serve the dual purpose of working to 
raise the level of protection at nuclear sites and present better 
economic conditions to newly retired security police officers.
    In closing, I wish to thank those men and women that serve as DOE 
security police officers and the privilege it has been to serve them as 
their spokesman in their efforts to secure a better career path. I also 
want to thank this committee for giving me the opportunity to present 
the case on behalf of the NCSP and look forward to answering any 
questions you may have or providing any additional information you may 
need.

    Senator Ben Nelson. Thank you.
    I think if we take a break to go and vote, we'll be right 
back. We apologize. That's one thing we have no control over. 
[Recess.]
    Hearing will come back to order.
    First, before the questions, Senator Vitter, any opening 
comments you might like to make?
    Senator Vitter. Mr. Chairman, in the interest of getting to 
some questions before we're all pulled away, I will submit my 
opening statement for the record.
    Senator Ben Nelson. Thank you.
    [The prepared statement of Senator Vitter follows:]

               Prepared Statement by Senator David Vitter

    Thank you very much, Mr. Chairman, and I join you in welcoming our 
witnesses today. I welcome you to your first hearing as chairman of 
this subcommittee and I look forward to working with you to strengthen 
our ability to counter all threats, including potential terrorist 
threats to our defensive nuclear capabilities.
    Today's hearing focuses on the personnel management of the 
Department of Energy's (DOE) Protective Force. Responsible for 
protecting some of our Nation's most sensitive materials, the more than 
2,000 brave men and women who comprise this force, represent some of 
the highest quality, best-trained, and best-equipped security personnel 
in the Nation. We are safer and more secure because of their service.
    In its assessment of the challenges associated with the unique 
personnel management structure of the Protective Force, the Government 
Accountability Office (GAO) highlights a number of areas that require 
attention and resolution both at DOE and here in Congress and I look 
forward to beginning that discussion in our hearing today. The report 
identifies discrepancies in management, organization, staffing and 
training of the forces across the complex, as well as inconsistencies 
in pay and benefits. It also examines the costs and benefits associated 
with exploring the federalization of the force, to which I conclude is 
neither a prudent nor viable answer.
    Both DOE and National Nuclear Security Administration (NNSA) 
recognize that the decentralized management of the protective forces 
creates inefficiencies that need to be addressed and that more needs to 
be done to resolve what GAO calls ``systemic carrier and longevity 
issues'' which are not being resolved thorough contractor actions at 
individual sites. This hearing presents an opportunity to acknowledge 
challenges, and I look forward to hearing more from DOE and NNSA on 
their path forward, as well as learning more about workforce concerns. 
But I remain firm in my belief that necessary workforce management 
improvement efforts can be effectively achieved by management and labor 
working together without federalizing the Protective Force, an approach 
that GAO acknowledges could result in negative consequences to the 
capabilities of the force.
    According to GAO, the current privatized management model offers 
some significant advantages that must not be overlooked. While not 
perfect, the current model provides the flexibility necessary to tailor 
the forces to the diverse and distinct security requirements spanning 
the many different sites across the complex. It is a management model 
that, according to GAO, instills an ``emphasis on cost-benefit analysis 
as a part of the decisionmaking process.'' A model which GAO also cites 
as being superior to other government-wide models such as the 
Department of Defense.
    In January 2009, the NNSA and the DOE Chief Health Safety and 
Security Officer jointly acknowledging the need for improvements in 
management of the current civilian contracted model but rejected the 
federalization of the Protective Forces. In the memo, the department 
concludes that the major benefits of federalization can be achieved 
through continued utilization of a contractual based approach; that 
federalization would not improve implementation nor increase the NNSA 
security protection posture; and that federalization in the short term 
would be undeniably costly without any indication in the long term of 
substantial cost savings.
    I concur with the departments findings and agree that personnel 
management improvements must be achieved rapidly, in a spirit of 
cooperation, and in a cost-effective manner. Furthermore, such 
improvements must also be considered with fairness and equity for those 
employees who have served so honorably in the Department's Protective 
Forces in the defense of our Nation.
    The act authorizing this review requires DOE to issue a report on 
the management of its protective forces within 90 days after the 
issuance of GAO's review and recommendations. I look forward to 
reviewing the department's response and I also look forward to further 
discussing ways to address these issues outside of the context of 
federalizing the protective forces. The GAO report highlights some 
significant challenges and I look forward to hearing more from our 
witnesses.
    Mr. Chairman, thank you.

    Senator Ben Nelson. Please start off with some questions.
    Senator Vitter. Right. Thank you very much.
    Mr. Aloise--is that the correct pronunciation?
    Mr. Aloise. Yes, sir.
    Senator Vitter. Yes. In the GAO report, you state that a 
federalized force offers no overall advantage to the current 
model, and that, basically, either option could result in 
effective and more uniform security, if it's well managed. To 
that extent, do you assess that the cost of implementing a 
Federalized force, overall, would be higher than the cost of 
fixing the current model?
    Mr. Aloise. Cost was difficult to analyze. We didn't come 
up with a cost estimate, because there are so many variables to 
consider, and we just don't have that data. For example, would 
DOE hire more guards if they federalized, so they wouldn't have 
to spend so much on overtime, or would they keep the number of 
guards they have and utilize overtime? What would those 
overtime rates be? We didn't have that data, and we could not 
come up with a cost estimate.
    Senator Vitter. Okay.
    Mr. Podonsky, do you have any response to the same 
question?
    Mr. Podonsky. We also do not have hard data, in terms of 
the cost. But, what we looked at multiple times, as I said in 
my opening remarks, is, where there would be cost savings and/
or effectiveness and security, and each time we've looked at 
it, as a department, we've come back in saying Federalizing was 
going to be more difficult than it would be if we cleaned up 
the current contracting situation that we currently have. So, 
one of the solutions, we believe, is to go to model contracts, 
with specific clauses in those contracts to take care of the 
concerns that the security forces are expressing and we agree 
with.
    Senator Vitter. Okay. Let me ask all of you, in whatever 
order you choose. There are these 29 recommendations that have 
been identified jointly by the Department and the unions. We're 
working on those, to some extent. If all of those could be 
accomplished, in your opinions, what would be the remaining 
issues, if any, that were far less than ideal, in terms of 
correcting the current model?
    Mr. Podonsky. Well, I'll go ahead and start, if my 
colleagues agree.
    The 29 recommendations was actually a product of the joint 
standing study group that was, as I said, both security 
professionals and the Department, contractors, and the union. 
So those 29 recommendations was the complete smorgasbord of 
what they felt--the complete group that the Department needed 
to do. My staff have told me, if, in fact, all 29 were 
completed, then there'd be very few, if any, issues remaining.
    Senator Vitter. Okay.
    Mr. Stumbo, what would your answer to the same question be?
    Mr. Stumbo. I sit on that standing committee, and in our 
opinion, based on those 29 recommendations, we identified those 
areas that truly had fractured the structure, that had made it 
dysfunctional. If we were to implement all of those 
recommendations, it would certainly allow us to have a 
structure that would permit the DOE SPOs to have a livable 
retirement, respectful of the mission that they perform.
    Senator Vitter. So, again, if we can check off those 29 
items--and I'm not suggesting that's easy to do or we'd do it 
overnight--would there be any remaining significant categories, 
in your opinion, of real work to be done?
    Mr. Stumbo. Not in my opinion, no, sir.
    Senator Vitter. Okay.
    Mr. Aloise.
    Mr. Aloise. We agree that the 29 recommendations, if 
implemented, would address concerns. The only point I'd like to 
make is, some of those recommendations, as you're aware, are 
potentially high cost.
    Senator Vitter. Right.
    Mr. Stumbo, as I appreciate it, a big part of your 
workforce's concerns are about retirement.
    Mr. Stumbo. Yes, sir.
    Senator Vitter. I've also heard, and I want to see if it's 
accurate, that a big portion of the workforce do not take full 
advantage of investment opportunities. Do you have a sense of 
what the facts are, with regard to the whole workforce? If 
nonparticpation is any significant factor, what can we do about 
it?
    Mr. Stumbo. Well, the 401(k) system was to be introduced 
and utilized in our collective bargaining agreements as a 
supplement, and only a supplement. So, the baseline, based on 
the shortened careers that each one of our men and women have 
to endure, is really what needs to be focused on. 401(k) is 
great, as long as the markets achieve the success that they can 
achieve, but we all recognize, based on the history of our 
recent markets, that if all of our eggs were in that basket, 
regardless of the participation rate, there's no way that our 
men and women could have retired.
    Senator Vitter. Well, what's the answer to my specific 
factual question about the participation rate? What is it or 
isn't it?
    Mr. Stumbo. I don't have the exact numbers in front of me 
for you. But, I would say, based on the young men and women 
that come out of the military, the 401(k) is probably a 50-50-
type percentage for those personnel.
    Senator Vitter. What could we do, usefully, to push that a 
lot higher, do you think?
    Mr. Stumbo. Well, I think that we are dealing with young 
men and women who, obviously, are not focused on the future. 
So, I believe that we continue to educate them, and try to 
place a system in place so that the decisions that they do not 
make as young men and women, we have a structure in place that 
will provide for them when they are mature enough and recognize 
the true need of the mission.
    Senator Vitter. Okay.
    Do either of you have a response to those two questions? 
Number one, what are the facts about participation rates? 
Number two, what can we be doing to significantly increase 
participation rates?
    Mr. Aloise. The only thing I would add is that it does vary 
from site to site, on the availability of defined benefits 
versus the contribution plan. We don't have good numbers on 
participation.
    Mr. Podonsky. I have nothing to add to that.
    Senator Vitter. Okay.
    That's all I have right now, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    Mr. Podonsky, you've been involved with the oversight of 
security forces and development of security policy for several 
years, and, as such, I know you're aware of the contractual 
evolution from all the protective forces. Nothing is static; 
there are constant changes. As such, is there any advantage or 
any particular reason for having different contractual 
structures today, as opposed to the evolution into a common 
contract, so that there aren't, in fact, differences? Is there 
something advantageous about having them all separate and 
different?
    Mr. Podonsky. Mr. Chairman, my office is responsible for 
independent assessment of the Department's performance, and we 
also promulgate the policy. Clearly, the line functions are the 
ones who set up the contracts with the various structures that 
they have out there.
    From my professional opinion, the only way there's an 
advantage to the contractors that are out there is if, in fact, 
we have a model contract. Right now we have a smorgasbord of 
contracts out there that grew up over many, many decades of the 
way the Department is structured. We believe, from an oversight 
perspective, as well as a policy perspective, that the line 
function should, in fact, take a look at a standardized 
approach; as I said in one of my previous answers, to have a 
model contract that has the contract language in there that has 
clauses to take care of these longstanding issues that the 
Department has been wrestling with since the 1990s.
    Senator Ben Nelson. Mr. Aloise, what are your thoughts?
    Mr. Aloise. Well, our perspective is that DOE should go as 
far as it can toward standardization. We called for that 
several years ago, and we still believe that's the way to go.
    Senator Ben Nelson. Mr. Stumbo?
    Mr. Stumbo. I believe the approach to have a contract that 
will provide those provisions that are necessary for a solid 
retirement structure would obviously be the path that we could 
take, and I do believe that is possible.
    Senator Ben Nelson. That should be a model--everybody 
treated the same? Or could it be different in each of the 
contracts?
    Mr. Stumbo. I think it should be the same, based on the 
retirement structure itself, if we were mirroring something 
that the Federal law enforcement currently have.
    Senator Ben Nelson. Okay.
    Senator Vitter. Mr. Chairman, can I just pick up on that 
quickly?
    Senator Ben Nelson. Yes. Please.
    Senator Vitter. Maybe I'm missing something, Mr. Podonsky. 
Is that not within the power of the Department, to clearly, 
forcefully move in that direction?
    Mr. Podonsky. In all due respect, I'm going to have to 
defer to a second hearing that I understand is going to take 
place. Because we are not the implementers of policy, we create 
the policy for the Secretary. But the contractual piece is 
governed, clearly, by the Federal acquisition rules, as well as 
the standards of the contracting world, which is not ours. So, 
in my opinion, yes, I do believe it exists, but that would be 
better answered by the next panel in the next hearing.
    Senator Ben Nelson. Now, my understanding was that the 
latitude of the contractors was limited by the Department of 
Energy to the amount, type, and nature of the pay and benefits 
available to the protective forces. Mr. Podonsky, are you 
saying that if DOE established a standardization, or, in your 
case, your words, a model policy, would it be possible to 
include those in the collective bargaining agreements if that 
was a requirement from the agency to the contractors?
    Mr. Podonsky. I can give you my personal view.
    Senator Ben Nelson. Your personal opinion is all I'm after 
right now.
    Mr. Podonsky. Okay. I believe people make requirements, and 
people can make the requirements adapt to what the situation 
is. As I just told Senator Vitter, this is really something for 
the line to determine, together with the contracting officials 
in the Department. But, when you look at the problem, as Mr. 
Stumbo and Mr. Aloise have articulated and we've also seen from 
our organization, this is a serious problem that has to be 
addressed now. It continues to be studied, and the actions that 
I'm sure we will be taking with the recommendations will help 
move the ball forward. But, we've wasted a lot of time on the 
same subject, and we haven't gotten to where we need to be.
    So, specifically, to your question, I think anything's 
possible if we set our minds to it. As I said in my opening 
testimony, it's going to not only take the union and the line 
working together, but Congress, to make that happen.
    Senator Ben Nelson. Mr. Aloise, are you aware of any 
particular stumbling block, other than just the challenges of 
getting something accomplished, but any legal impairment or 
inability of DOE to set the requirements to standardization or 
in model form for the contractors to meet with respect to the 
negotiations on the collective bargaining with the unions?
    Mr. Aloise. We'd have to look at that more closely. But, 
from the work we've done, we don't see anything that would 
preclude that. But, you're talking about six or more collective 
bargaining agreements right now, and many different sites, so 
it would be a challenge to get that done.
    Senator Ben Nelson. Is that something that, in your 
opinion, you could accomplish over some period of time, 
recognizing the different contract dates and times for 
collective bargaining for new contracts?
    Mr. Aloise. It appears it could be done over a period of 
time.
    Senator Ben Nelson. Would it be advisable to end up with a 
common time for the expiration of such contracts?
    Mr. Aloise. It would be helpful, but I'm not sure if it's 
achievable.
    Senator Ben Nelson. Mr. Stumbo, do you think it's possible 
that some contracts could be for longer periods of time to 
shorter periods of time to achieve a standard timeframe, so 
that you would have standardization and a model approach for 
all of the contracts with the contractors for their employees?
    Mr. Stumbo. Mr. Chairman, we have discussed that exact 
situation and we have assured the Department of Energy that we 
will do whatever is necessary; if we need to open up portions 
of our bargaining agreement now to ensure that we can implement 
that structure, we would do so.
    Senator Ben Nelson. That could include the expiration date, 
so as long as your members were not in some way being 
disadvantaged in the process. Is that fair, too?
    Mr. Stumbo. Yes, sir.
    Senator Ben Nelson. Mr. Stumbo, how would your workforce 
react if, in this federalization effort, there was a decision 
where each position would be subject to open competition?
    Mr. Stumbo. Obviously, that would be very negative to the 
men and women that have spent their careers and put their lives 
on the line for so long. Obviously, that would be, basically, a 
kick in the face to us, based on what we have done for this 
country.
    Senator Ben Nelson. Mr. Podonsky, do you have any thoughts 
about that, from the standpoint of DOE?
    Mr. Podonsky. Mr. Chairman, we looked at both the 
improvement of the existing contracts, as well as the 
federalization. As I've said in my testimony, we felt that the 
negative side of the federalization, and all that comes with 
being compliant with OPM rules and what the current situation 
is, whether the Guards would be grandfathered in or not, what 
pay grade they would be coming in--it appears to us that the 
existing legislation governing federalization would be a 
deterrent for encouraging the existing guard force to come into 
the Federal force.
    Senator Ben Nelson. Senator Begich, would you like to have 
some questions, please?
    Senator Begich. Thank you, Mr. Chairman.
    Just remind me again, how many bargaining units are there? 
Or, first, how many sites are there, again? Remind me.
    Mr. Podonsky. There are approximately 26 sites, and then 
those are broken up into facilities.
    Senator Begich. Is there a certain amount of sites that 
have the highest volume of employees?
    Mr. Podonsky. What happens, Senator, is, each site has a 
different mission, and there are different categories of 
attractiveness and materials. You may have a site that's just 
manufacturing of parts, or you have a site, such as Pantex, 
that actually has full-up weapons. So, it runs the 
kaleidoscope.
    Senator Begich. Gamut. About 26.
    Mr. Podonsky. Roughly, in terms of the sites that we're 
talking about, with security officers.
    Senator Begich. Again, remind me, does each site have their 
own, then, contract for each site?
    Mr. Podonsky. No, sir.
    Senator Begich. Some are wrapped together?
    Mr. Podonsky. There are three different approaches. Some 
security officers report directly to the Federal entity, some 
report to the management and operational contractor as a part 
of their company, and then a third one is where there's private 
security----
    Senator Begich. Okay. Private security.
    Mr. Podonsky.--that is contracted with the M&O. So, there 
are three different elements in the model. Then there's the OST 
model that we've talked about, which is a Federalized force.
    Senator Begich. Right, and then, how many different 
bargaining groups are there, within all these organizations?
    Mr. Stumbo. I'd say, totally, between independents and 
internationals, you're probably looking at approximately five 
groups.
    Senator Begich. Five groups.
    Mr. Stumbo. Yes, sir.
    Senator Begich. That's actually very good, if there's only 
five.
    Mr. Stumbo. Yes, sir.
    Senator Begich. As a former mayor, I had to deal with nine, 
plus another one had eight underneath its one. So, five is a 
piece of cake. So, why I say that is because your comment, ``it 
may be difficult.'' To me, five is a dream. Senator Nelson, you 
were a former Governor, you know what I'm talking about.
    Since we did this, in the city where I was mayor, we 
unified the contracts and timetable of expiration, mostly 
around healthcare issues; we weren't all under the same plan. 
We had multiple jurisdiction issues, and we just staggered out, 
on the back end; once they all got to a certain point, then we 
had a 3-year--in some cases, 5-year deals. So, it created 
consistency, and so forth.
    Is that, when you say, ``opening it up''--and I've 
wondered--I caught your words very carefully here, as a--I've 
been on both sides of the equation here, union and management, 
so certain parts of the contract that you could open up--would 
you mean how to get the timetables adjusted, so everyone can 
expire at the same time, and then get a unified system of when 
these contracts go in, or all the contract terms, meaning that 
you can start unifying systems, pay grades, other things? I 
want to make sure I heard what you said there, because there 
were very carefully picked words, and I want to make sure we're 
on the same page.
    Mr. Stumbo. Yes, sir. What I was trying to get across was 
that each of the collective bargaining agreements have certain 
provisions, particularly those that affect the retirement 
structure. Those particular articles could be opened up, and we 
could implement the correct structures, in our opinion, that 
would fix our problems.
    Senator Begich. Okay.
    Mr. Stumbo. So, by doing that, we could expedite the 
process without waiting for each contract to actually expire 
before we could make that happen.
    Senator Begich. Do you believe the groups would allow that 
to occur without triggering any other aspects of the contract 
and awards? I know, sometimes when you go there, it starts a 
formal process. When you open up a contract for a condition, 
there are conditions within the contract that then start 
triggering timetables. Do you think you would be able to do it 
in such an informal, but yet still formal, way that you would 
not create other issues in the contract that would have to be 
dealt with?
    Mr. Stumbo. Absolutely. Yes, sir, I believe we can.
    Senator Begich. So you feel very confident that all 
bargaining groups would do that.
    Mr. Stumbo. Yes sir, I do.
    Senator Begich. Okay. The last, if I can----
    Senator Ben Nelson. Yes, sure.
    Senator Begich.--Mr. Chairman, and that is--and your 
comment that it seems like now's the time--I'm new to this; 
I've been here a year-and-a-half. But, as you were, and others 
were, talking about the multiple years of this discussion, the 
question I have is, who will trigger the action to make this 
move forward? In other words, I know we'll have another 
hearing. But, who within the DOE, I'll use as first trigger 
point--who says, ``we're going. We're going to do this,'' and 
set the timetable to get going and sit down with the bargaining 
groups and say, ``We're going to try to figure out how to unify 
this system, create a career path, not in-and-out or, in some 
cases, some people who have been there a long time, but are 
kind of stalled out and not able to move forward. Who makes 
that decision?
    Mr. Podonsky. Well, that's clearly, Senator, the 
prerogatives of the Secretary of Energy. But, let me say, with 
our partnership with the unions and the line functions that I 
mentioned, we're already--those 29 recommendations----
    Senator Begich. Right.
    Mr. Podonsky.--started solidifying some actions that the 
Department should start taking, and we're guardedly optimistic 
that the line functions will continue down that path. But, the 
ultimate decision is going to be the Secretary of Energy, as to 
how far that goes, in partnership with Congress.
    Senator Begich. Okay. It just made me think of two other 
things, Mr. Chairman, if I can.
    One, on the report, is there a timetable you have set 
that--not to just review and look at the actions, but actually 
implement these actions, and then the ones that you can't, 
clearly identify when and at what point you can make that 
decision? Have you set out a time schedule? Do you have a 
working time schedule that you are all using within the 
Department?
    Mr. Podonsky. Well, two things. We owe a report to Congress 
on April 30 for a comprehensive implementation plan for those 
recommendations.
    Senator Begich. Yes.
    Mr. Podonsky. But, we're not waiting for that plan.
    Senator Begich. Okay.
    Mr. Podonsky. We have a committee that was set up to 
address that, with the line functions. Out of the 29 
recommendations, about 17 of them are already underway. The 12 
that are remaining out of the 29 are those that are very 
difficult, having to do with the bigger issues of retirement 
and disability and pension and things of that nature.
    Senator Begich. Well, I'm a believer--when I was mayor and 
when I was on the city council, we dealt with police and fire 
retirement issues, and there's nothing more complicated--
medical liability, long-term retirement, multiple plans, you 
know survivor--the whole nine yards. We did it. It was no fun.
    The last comment I'd say is, I do believe, and I want to 
echo through the questions that the chairman asked, that I do 
believe if you set the criteria for the contractors, they can 
do that. We did that with security within our community. When 
we had private security, we said, ``Here's what we want. Here's 
the standards of living we want you to make sure are in those 
contracts.'' They were paying them 8 bucks an hour. You 
couldn't--the rollover rate was unbelievable. They had no 
benefits. We said, ``Here's the standards we want you to adhere 
to.'' Of course, that cost, but that was then competitively bid 
to the contractors, and they figured it all out. But, at the 
end of the day, we knew the employee, who was working on behalf 
of the city, securing buildings in our issues, had a standard 
that we felt very confident was equal or close to if you were a 
municipal employee, but being in a private-sector environment.
    So, I know there is some question if it can be done. If 
local governments can do it, sure to heck the Federal 
Government can do it, because you have a lot more power. So, I 
would just encourage you to look at that question and clearly 
define that. Because the contractors respond to what you put in 
the scope of services, and the scope of services said, ``here's 
the 10 things we want you to do for these employees,'' and they 
have to adhere to it or they don't bid. So, I'm a believer in 
this.
    I know you asked it as a question, but I believe that you 
can do it. We did it. Obviously it turned from about a 60-
percent turnover rate down to 3 percent, and people saw 
opportunity rather than just a part-time job at night and then 
who knows what else they were doing. We wanted to focus on 
security. So, there's my two bits through your question. I 
apologize.
    Senator Ben Nelson. Oh, no, that's quite okay. Thank you.
    Mr. Stumbo, DOE has arranged the protective forces into 
various different categories. Three grades of security police 
officers are SPOs I through III and security officers. Do you 
have any data that shows, generally, when you begin to see an 
inability to meet the--let's say, the highest and most 
demanding grades--SPO II and SPO III?
    Mr. Stumbo. Yes, sir, I can provide----
    Senator Ben Nelson. The breakdown of the ability of the 
individuals in those positions to carry out their duties is 
what I'm----
    Mr. Stumbo. I think the best data will represent that it's 
the collective years, as I identified in my oral statement. 
It's the collective years that actually break down the 
personnel. So, their best years are 20 years. So, probably half 
way into their career, they begin to realize and recognize that 
they cannot maintain that pace. So, from their 10th year to 
their 20th year, obviously they begin to think whether or not 
they should stay in the career, or not.
    Senator Ben Nelson. As a result of that, one of the major 
concerns that both the DOE and the collective bargaining unit 
have would be early retirement and having retirement benefits 
commensurate with early retirement. Is that fair to say?
    Mr. Stumbo. Yes, Sir. Based on the inability for us to 
maintain longer careers, that's absolutely true. Yes, sir.
    Senator Ben Nelson. If you looked at, let's say, retraining 
or moving into new career opportunities, career fields, Mr. 
Podonsky and Mr. Aloise, what are the pros and cons of a career 
field that includes, let's say, a retraining option, so that 
we--as individuals who are no longer able to carry out the 
demanding work requirement for the highest grades, are there 
any contractual barriers to putting something like this 
together that would satisfy the concerns of being able to 
continue in employment until retirement at some standard age, 
consistent with the Federal Government employees? Anything 
contractual that would get in the way of that? Or is that 
really not a wise path to take for bringing the federalization 
of these employees into being?
    Mr. Podonsky. Specifically--and I don't want to sound like 
a broken record, but obviously some of your questions are very 
much geared towards the line, who are implementing and are 
letting out the contracts. I don't know if there's a 
contractual issue there.
    Senator Ben Nelson. You're not aware, are you----
    Mr. Podonsky. I'm not aware of any. However, I would tell 
you, it's just good, sound management in my opinion, from the 
policy and oversight, if we have protective force individuals, 
they have clearances, they know the sites; we should be able to 
transition them to other positions. In fact, sir, that's part 
of the reason that we have the three categories of SPOs 
originally. It wasn't just for safeguards posturing, it was 
also to give a career path, so as people were no longer, say, a 
SPOs III, which is a very offensive tactical group, they could 
perhaps go to a fixed post.
    Senator Ben Nelson. It might be easier to show the career 
path going up than it is to get people to accept a career path 
going back.
    Is that a factor, Mr. Stumbo, with your group?
    Mr. Stumbo. Yes, sir, it certainly is.
    Senator Ben Nelson. Mr. Podonsky, I understand that, as 
circumstances change--health changes and what have you--but, 
that apparently is a big stumbling block.
    Mr. Stumbo. Yes, sir.
    Senator Ben Nelson. Is it because of salary, or is it just 
because of the nature of people not wanting to, let's say, move 
backwards, if they don't have to?
    Mr. Stumbo. A lot of it has to do with a great deal of 
pride.
    Senator Ben Nelson. That's what I mean.
    Mr. Stumbo. A great deal of pride for what they feel like 
the commitment that they have made to the United States, 
risking, potentially, their lives, based on a terrorist attack. 
It is a great deal of pride.
    Senator Ben Nelson. I understand. Okay.
    Mr. Aloise, what did your findings reflect?
    Mr. Aloise. Well, we thought that a career path makes 
sense. Right now, if they do fall back to the SO, from a SPO I 
or II, they probably will take a pay cut in that lower 
position. But, a career path, training, and retraining is 
something that we think can be done. We've invested a lot of 
money in these people. They're well trained. They have the high 
level security clearances. They're valuable resources, and we 
should keep them as long as it makes sense to keep them.
    Senator Ben Nelson. So, we have to deal with pride, as well 
as economic reality and a number of other things. That's 
typical of what we deal with, isn't it?
    Well, I think one of the delicate questions is about the 
actual security of the sites, because that's what this is all 
about; the underlying security of the sites. Is there a concern 
about individuals, who have clearance and have knowledge, 
leaving the employment of the contractor, with that knowledge? 
Is that a major concern within DOE, Mr. Podonsky?
    Mr. Podonsky. There's always a concern of what we call the 
``insider threat.''
    Senator Ben Nelson. Yes.
    Mr. Podonsky. That's something that clearances are supposed 
to help us protect against, but you can never predict what the 
individual is going to do. We don't currently have a high 
concern about people leaving that have clearances to go on to 
other positions. But, occasionally we do have issues, through 
the clearance process, that we find, where people have shared 
classified when they shouldn't have after they left, or they 
kept classified. So, like with any organization, you're going 
to have people problems, and I have seen, in my short 26 years 
in the Department, not a great deal of that, for the numbers of 
people that we have employed.
    Senator Ben Nelson. If we had this career path, which would 
obviously improve retention, would that also reduce the 
concerns about--what did you call it? The inside----
    Mr. Podonsky. The insider threat.
    Senator Ben Nelson. Right.
    Mr. Podonsky. I believe that a career path for the 
protective force, as I said in my testimony, is something that 
we absolutely need to find. Relative to a insider threat, 
that's a whole different subject, as to what motivates people 
to do that. I don't believe that having a career path, or not, 
is going to add to that or take away from that.
    Senator Ben Nelson. Mr. Stumbo, do you have any thoughts 
about the career path and retention?
    Mr. Stumbo. Yes, sir, Mr. Chairman. I believe that, 
obviously, a career path is good business for the American 
taxpayer. But, we have to be realistic, as well, to understand 
and recognize that there's a limited amount of positions that 
can be made available at any given time. So, in my opinion, it 
is good business. We certainly will help facilitate, entertain 
any method of a career path. At the same time, based on the 
sensitivity and the significance of what takes place at these 
sites, obviously a large output of personnel with the knowledge 
base that they would have would, even in a limited scope, 
certainly be very damaging to the United States. So, yes, we'd 
be very sensitive of that, as well.
    Senator Ben Nelson. Mr. Aloise, did the GAO have any 
opportunity to look at how DOD secures its nuclear weapons 
storage areas, to see if there are any lessons learned from DOD 
that would have some application here in the case of DOE?
    Mr. Aloise. We focused on the DOE protective forces for 
this review.
    Senator Ben Nelson. So, any inconsistencies from your 
particular standpoint?
    Mr. Aloise. The DOE forces play a unique role, and it's 
hard to compare them to what the military does because they are 
guarding nuclear materials, nuclear weapons and components and 
full-up nuclear weapons.
    Senator Ben Nelson. I think there was a question raised, as 
well, about the consistent training. Mr. Aloise, can you give 
us your thoughts on how well-trained individuals are, and 
whether there needs to be any improvement in the training of 
the security forces?
    Mr. Aloise. In general, DOE protective forces are a robust 
well-trained force. But, the training varies from site to site. 
Some have more or different training than others. During my 
visits to DOE sites the one thing protective forces were all 
asking for is more, more firearms and tactical training. So, it 
does vary from site to site, and in our view, should be 
standardized, to the extent that it can be.
    Senator Ben Nelson. Mr. Podonsky, do you think that, as a 
result of that recommendation, that DOE can work toward 
standardization of the training?
    Mr. Podonsky. We're already doing that, Mr. Chairman. We 
have a Basic Security Police Officer Training course, we call 
``BSPOT,'' and it's run out of the National Training Center, 
out of Albuquerque, which is in my organization. When the 
officers then go back to their site of assignment, they get 
additional site-specific training. But, definitely, we never do 
enough training. One of the things that's not part of this 
hearing, but I will tell you, we try to introduce technology 
into the Department for becoming what we call a ``force 
multiplier,'' to strengthen the security forces, not to take 
away security forces. Part of the advantages of the technology, 
it not only improves our effectiveness, but also gives us the 
opportunity to increase the training of the security officers 
that would have more time when we have the technology 
equipment, as well. So, there are a lot of advantages and there 
are a lot of complexities to this problem, but nothing that is 
insurmountable.
    Senator Ben Nelson. Mr. Podonsky, DOE has also changed from 
a design basis threat (DBT) to a new term, graded security 
policy (GSP). How are these two policies different?
    Mr. Podonsky. Without getting into classified nature of the 
two policies, the graded security protection policy was created 
because the design basis threat was predicated on threat 
statements from the intelligence community, and, as a result of 
every year that we review this, we found that the intelligence 
community was no longer standing behind any particular threat 
statement, in terms of numbers. So, I instructed my policy 
people that we needed to come up with an approach that would 
allow the sites to be effectively protecting against scenarios, 
as opposed to a set number of adversaries.
    So the basic difference is, it gives the sites much more 
flexibility for site-specific protection, as opposed to just 
the postulated threat that we had lived through previously.
    I'd be happy to give you a classified briefing on that.
    Senator Ben Nelson. Sure.
    Mr. Podonsky. We feel that it's a much more effective way 
to improve the security posture of the Department right now.
    Senator Ben Nelson. Mr. Stumbo, do you agree with that?
    Mr. Stumbo. Yes, I do agree with it, but you have to 
recognize and understand that our threats are in evolution; 
they evolve. As the terrorists become more desperate--and we've 
seen a lot of those events of recent times--we have to evolve 
and we have to increase our abilities to be able to defend 
those threats. So, as far as the protective force is concerned, 
we need to improve daily. It's not an achievement where we ever 
really ever get there. It's something that we work on every 
single hour of every day that we are at our sites, because the 
consequences are too great to our Nation to allow one slip-up 
at a site like Pantex.
    Senator Ben Nelson. Mr. Aloise, what were your findings in 
conjunction with the changing of the threat approach and how 
it's being maintained and trained for at the present time?
    Mr. Aloise. DOE, over the years, has changed the DBT a 
number of times--it did so in 2003, 2004, 2005, and again in 
2008. A lot of this is tied to money. It's very expensive to 
guard these sites. I understand that DOE believes its sites are 
at a level where DOD believes they should be.
    GAO has done numerous reviews on DOE security, and made 
many recommendations, but, in the end, we have always came back 
to believe it was a very robust force, and still is.
    Senator Ben Nelson. What question haven't I asked that I 
should be asking?
    Each of you.
    Mr. Podonsky?
    Mr. Podonsky. Actually, no other questions for us, but I'm 
looking forward to the questions that will be asked of the 
line, who actually implement the policies and the contracts of 
the Guard force and the security posture of the Department.
    Senator Ben Nelson. Mr. Stumbo, have we not asked something 
that we should have?
    Mr. Stumbo. No, Mr. Chairman. I believe that you have asked 
some very good questions. I think, in response from the 
protective force, that we have just waited a very, very long 
time. Many of the men and women are no longer with us, that 
waited for some resolution, based on the commitment they had to 
their country. So, those that are in the system right now, we 
continue to wait and feel like we are at the mercy of Congress 
to do whatever is necessary to ensure that we receive the 
appropriate restructure.
    Senator Ben Nelson. That ``being at the mercy of Congress'' 
is not necessarily a very secure feeling, is it?
    Mr. Stumbo. No, sir. [Laughter.]
    No, sir, it is not.
    Senator Ben Nelson. I understand.
    Mr. Aloise, anything?
    Mr. Aloise. I would just add, Mr. Chairman, that the 29 
recommendations DOE has come up with for improving protective 
forces causes is a step in the right direction, but it is going 
to take leadership from the Secretary of Energy to get this 
done.
    Senator Ben Nelson. Any thoughts from any of you about a 
timeframe. If we said, ``today we're going to do it,'' are we 
looking at, certainly not days, but months, and many months, to 
get it in place and implemented?
    Mr. Aloise, do you have some thoughts on that?
    Mr. Aloise. We hope that they start almost immediately, 
because we want to avoid another strike at another site; DOE 
needs to take action now to make sure that doesn't happen.
    Senator Ben Nelson. How long do you think it would take, 
once you make the decision to do it, how long would it take to 
implement it?
    Mr. Aloise. I believe it would take years, not months.
    Senator Ben Nelson. Mr. Podonsky?
    Mr. Podonsky. I agree with Mr. Aloise, in terms of the 
actions that we're taking now need to be clear to the unions 
and the Guard forces out there, that the Department is taking 
action and that we're not just talking any longer. But because 
of contractual circumstances, it will take quite a long time. 
We didn't create this problem overnight; it's taken years for 
us to create this problem. That doesn't mean that it should 
take that long to unravel. But, clearly, again, as I said, and 
my colleagues at the witness table have said, in partnership, 
all together, with Congress, we can make this right.
    Mr. Stumbo?
    Mr. Stumbo. Mr. Chairman, the only portion that I would 
disagree from my colleagues is that the necessary resources 
that could be implemented within our collective bargaining 
agreements could be done much quicker if we're provided the 
resources to make that happen. You would have the full 
commitment from labor to ensure that we could make that happen 
long before they have to worry about the next contract 
expiration.
    Senator Ben Nelson. Well, as I was getting briefed for the 
hearing today, I have to admit that this is one of the most 
byzantine set of arrangements I have ever imagined could exist 
anywhere, let alone within the Federal Government. Usually we 
can find a pretty good way of doing things in a byzantine 
fashion with an awful lot of bureaucracy, but I must confess, 
I've never seen anything quite like this.
    I understand that there are differences in sites and 
requirements--and so, obviously, there are some things that 
absolutely need to be patterned after the needs and be 
specifically tailored to what is done, but not everything. So 
I'm hopeful that, with the next hearing, we'll get more 
information, and perhaps, together, we'll find a way to make 
this happen for everyone.
    Uncertainty benefits nobody, and I'm just certain that 
you've lived with that constant uncertainty for eons. So if it 
is possible to bring this to some sort of a conclusion or 
resolution for everybody's benefit, including the people of the 
United of America, we ought to be seeking to do that, and do so 
in a timely fashion.
    So, I thank you for your participation today, for your 
candid answers. I thank you all for being here.
    We stand adjourned.
    Thank you.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator David Vitter

                             FEDERALIZATION

    1. Senator Vitter. Mr. Podonsky, in the January 2009 memo from you 
and the Administrator of the National Nuclear Security Administration 
(NNSA), you examined the costs and benefits associated with 
federalizing the protective force. The memo asserted that the ``most 
important factor to consider when determining the best organizational 
structure for protective forces is which model will result in the most 
effective security for the facilities in a cost effective manner.'' Can 
you please address the role security and cost effectiveness played in 
reaching your conclusion in the 2009 memo that federalization of the 
protective forces is not a viable option?
    Mr. Podonsky. The most recent study of these issues, sponsored by 
NNSA in 2008, did not draw a conclusion regarding the relative merits 
of protective force federalization. A joint Department of Energy (DOE)/
NNSA study in 2004 recommended that the best long-term organizational 
approach for achieving cost-effective and efficient security of our 
vital national assets was to convert the existing contractor protective 
forces to Federal status. The recommendation to federalize was focused 
explicitly on the provision of a combat-effective protective force, 
designed to defeat a well-armed and dedicated terrorist adversary at 
any DOE facility involved directly in the protection of nuclear 
weapons, special nuclear material (SNM), or other strategic national 
security assets. However, upon further consideration, concerns were 
identified regarding near-term consequences of federalization, 
including near-term instability within the existing force and 
substantial transition costs, while the most significant benefits 
derived from federalization could also be achieved within a contract 
force arrangement. Additional factors that militated against the 
conversion to a Federal force included the time required to convert, 
and the difficulty in reconciling the centralized Federal force model 
with the site-based management model used in the Department. Finally, 
we were sensitive to the possible adverse impact on those current 
members of the force who might not meet some of the Federal employment 
criteria, and, in general, the employment uncertainties that officers 
and their families would face during a protracted transition. In the 
final analysis--and in the absence of a clear-cut cost advantage in 
favor of federalization--the Department made its largely for reasons 
other than cost.

    2. Senator Vitter. Mr. Podonsky and Mr. Aloise, in the Government 
Accountability Office (GAO) report you assert that a Federal force 
offers no overall advantage to the current model and that either option 
could result in effective and more uniform security if well-managed. To 
that extent, do either of you assess that the cost of implementing a 
federalized force would be higher than the cost of fixing our current 
model?
    Mr. Podonsky. Earlier cost analyses were limited in scope and, 
therefore, comprehensive data is lacking. We do not know, for example, 
what grade level could be assigned, or the extent of transitional costs 
as opposed to the implementation of a performance-based contract. It is 
also not known how many officers would not qualify for Federal 
positions, which would result in an increase in costs for recruiting 
and training new personnel. For a comprehensive answer to this 
question, additional study would be needed on a site-by-site basis.
    Mr. Aloise. We were unable to make the cost comparison needed to 
answer this question. Reliably estimating the costs to compare 
protective force options proved difficult and precluded our detailed 
reporting on it for two broad reasons. First, since contractor and 
Federal forces could each have many possible permutations, choosing any 
particular option to assess would be arbitrary. For example, a 2008 
NNSA-sponsored study identified wide-ranging federalization options, 
such as federalizing all or some SPO positions at some or all 
facilities or reorganizing them under an existing or a new agency. 
Second, DOE will have to decide on the hypothetical options' key cost 
factors before it can reasonably compare costs. Either option could be 
implemented with more or less costly features. For example, adding the 
early and enhanced retirement benefits would increase costs for either 
contractor or Federal protective forces.

    3. Senator Vitter. Mr. Podonsky and Mr. Aloise, I understand that 
if a federalization model were pursued the current forces would risk a 
loss in pay and perhaps their jobs as they would be required to 
recompete for the same job under a federalized structure. Could one 
assume that such a transition could have a significant destabilizing 
effect on the current force?
    Mr. Podonsky. Yes. These risks to individual officers are real. If 
each officer had to compete for what is in effect his or her own job, 
we would expect that uncertainty and instability in the workforce would 
be a major issue. Traditional union rules of seniority would not apply 
and certain requirements within the civil service system could further 
complicate hiring actions and contribute to destabilization.
    Mr. Aloise. Yes, transitioning to a Federal force could have a 
significant destabilizing effect on the current force. Under existing 
laws, not only would current force members risk a loss in pay and even 
their jobs, but they would not receive the enhanced and early 
retirement benefits that a coalition of their unions had hoped would 
come with federalization. As force members become aware of these likely 
unpalatable consequences, their morale might be significantly lowered-
both in anticipation of federalization and after it occurs.

                          RETIREMENT BENEFITS

    4. Senator Vitter. Mr. Podonsky, the current protective force is 
well paid, and in many cases is better paid than equivalent Federal 
positions. The current force enjoys generous retirement and health 
benefits including in almost all cases employers contributing to 401(K) 
retirement plans. I was troubled to hear that one issue unaddressed in 
the report may be that some within the protective force are not taking 
advantage and/or using the employer contributing vehicles to save for 
their retirement. I look forward to hearing from you what can be done 
to emphasize the importance of doing so; do you have statistics on the 
percentage of the force who take advantage of their 401(K) benefits?
    Mr. Podonsky. This has been one of our concerns as well. One of the 
primary concerns of the Protective Force Career Options study 
initiative that HSS chartered last year was how to encourage 
contractors to offer educational, financial, and career counseling 
opportunities to contractor workforces. One of the 29 recommendations 
generated by that group explicitly calls for a DOE-wide program of 
retirement counseling and training that would address such issues as 
early and consistent 401(k) participation. This recommendation builds 
upon similar individual programs that already exist at several sites, 
including classes on long-term financial planning in their initial new 
employee orientation and basic training with periodic refresher 
sessions. A notable example of such an existing program is found at the 
Savannah River Site. Additionally, the National Training Center is now 
engaged in the development of standardized methodologies for the 
delivery of these types of materials and information at all sites. It 
should be further noted that available data on protective force member 
participation in 401(k) plans points to reasonably high levels of 
participation already.

    5. Senator Vitter. Mr. Podonsky, if it is, in fact, correct that a 
vast majority are not contributing to their retirement plans, what can 
be done to emphasize the importance of doing so?
    Mr. Podonsky. The figures available to us indicate that a 
significant majority of protective force members are, in fact, 
currently contributing to their retirement plans. For example, at the 
Savannah River Site, one of the largest protective forces in the DOE 
complex, the DOE contractor employees have a 401(k) enrollment rate of 
95 percent; Savannah River Site's protective force contractor has a 
highly-developed program to encourage participation. The Hanford Site 
contractor employees have an enrollment rate of about 91 percent, the 
Oak Ridge Complex contractor has a rate of 86 percent, the Idaho 
Complex contractor has a rate of 79 percent, and the Headquarters force 
contractor has a 72 percent rate. DOE and NNSA have asked several line 
management organizations to develop up-to-the-minute participation rate 
figures for contractors at all sites as part of DOE and NNSA current 
initiatives, but these preliminary data do not support the impression 
of widespread non-participation. As noted previously, however, we 
believe that participation can be maximized through the development and 
delivery of standardized materials that can be tailored to specific 
local programs along with more sites implementing mandatory initial 
participation by new hires.

    6. Senator Vitter. Mr. Podonsky, the National Defense Authorization 
Act for Fiscal Year 2010 directs the Secretary of Energy and the 
Administrator of the NNSA to develop a comprehensive, Department of 
Energy (DOE)-wide plan to identify and implement the recommendations of 
the study group. Furthermore, the legislation cites that it is the lack 
of clear, uniform, and realistic guidance and policy from DOE to the 
various contractors who manage the protective forces that is at the 
root of the problems. Do you agree that the root of the problems with 
the protective force is the lack of clear, uniform, and realistic 
guidance and policy from DOE to the various contractors?
    Mr. Podonsky. DOE and NNSA do not believe that formal DOE 
protective force policy--or the lack thereof--is the primary source of 
these problems, but we do acknowledge that the multiple line management 
programs and individual sites in the implementation of policy has 
contributed to the problem. Additionally, the situation has also been 
affected by changes in other areas such as the administrative policies 
governing procurement. Also, some other important inconsistencies have 
evolved through the course of successive collective bargaining 
agreements at the sites, much of which is outside the purview of policy 
officials. Our recent contractor protective force career options study 
noted that these issues are not the result of anyone's overall 
intentions for protective force members and their careers, but instead 
as a result of the implementation, over time, of patchwork solutions to 
a wide range of individual issues. In this sense, we do agree that the 
time has come to establish clear and consistent performance standards 
for protective force performance, while still maintaining the necessary 
flexibility to permit adaptation to the special needs of line 
management programs and particular site environments.

                      STUDY GROUP RECOMMENDATIONS

    7. Senator Vitter. Mr. Podonsky, does the DOE intend to pursue the 
implementation of all 29 recommendations cited in the June 2009 report 
on Enhanced Career Longevity and Retirement Options for DOE protective 
forces personnel?
    Mr. Podonsky. DOE has committed to pursuing a course of action that 
leads to satisfactory resolution of the issues that drove the 
recommendations. Achieving satisfactory solutions will depend upon 
close cooperation among all Departmental elements--line management, 
policy, contractors, unions.

    8. Senator Vitter. Mr. Podonsky, what is the anticipated timeline 
for implementing those recommendations the Department has already 
agreed to apply?
    Mr. Podonsky. The timeline for implementation is one of the actions 
still being developed. This will be discussed as part of the 
implementation plan due to Congress no later than April 30, 2010. This 
plan and its due date are a result of the Government Accountability 
Office report of March 3, 2010, ``DOE Needs to Fully Address Issues 
Affecting Protective Forces Personnel Systems.''

    9. Senator Vitter. Mr. Podonsky, has the Department fully estimated 
the cost implications of doing so, and if so, what is the estimated 
unbudgeted cost, and if not, when will you be able to provide those 
costs to Congress?
    Mr. Podonsky. Possible alternatives to address various options are 
still being developed in coordination with line management and, where 
completed, costs estimates will be reported in the implementation plan 
due to Congress by April 30, 2010. Where necessary, the April 30 
submission will also identify cost analyses that may require additional 
time beyond that date for completion.

                       RECRUITMENT AND ATTRITION

    10. Senator Vitter. Mr. Podonsky and Mr. Aloise, is the Department 
having any difficulty in the recruitment or quality of the protective 
force?
    Mr. Podonsky. DOE contractors do not experience difficulty 
attracting and recruiting qualified men and women to constitute our 
protective forces.
    Mr. Aloise. Preliminary data we collected on protective forces at 
the six sites we reviewed did not appear to show any systemic 
recruiting problems. In the absence of apparent problems, we did not 
pursue this issue further. We did not collect any specific information 
on the quality of protective forces or recruits, but note that armed 
DOE protective forces (Security Police Officers-I, -II, and III) must 
undergo extensive background checks and ongoing evaluation since they 
carry high-level security clearances and are enrolled in formal human 
reliability programs, complete extensive initial and annual refresher 
training, and regularly demonstrate that they can meet firearms and 
physical fitness qualifications.

    11. Senator Vitter. Mr. Podonsky and Mr. Aloise, are the salaries 
and benefits of the protective force competitive?
    Mr. Podonsky. Our contractor firms consult Department of Labor wage 
tables in order to ascertain the prevailing local wages for protective 
force positions. DOE contractor protective forces are well paid in 
relation to other contractor protective forces, but pay is 
proportionate to the responsibilities inherent in the work.
    Mr. Aloise. Since comparing the salaries and benefits of the 
protective forces with those of similar positions in the private sector 
was not in the scope of our work, we cannot say whether their salaries 
and benefits are competitive. However, based on our review of 
protective forces' pay and benefits, we offer this observation that 
should be considered in such a comparison. Since protective forces' pay 
is often significantly increased by overtime hours, comparisons of 
annual salaries with private sector positions should consider potential 
differences in the number of hours worked annually.

    12. Senator Vitter. Mr. Podonsky and Mr. Aloise, how do attrition 
rates for the protective forces compare to similar positions in the 
private sector?
    Mr. Podonsky. Attrition does not appear to be a problem for our 
protective force. Our data indicates that attrition rate for our DOE 
and NNSA contractor protective force officers is well below that of 
related jobs in the local areas where they reside.
    Mr. Aloise. Comparing attrition rates for protective forces and 
comparable private sector positions was not in our scope of work. 
However, the preliminary data on protective forces attrition we 
collected did not appear to show any systemic attrition issues. 
Protective forces at all sites, as well as Federal agents that work for 
the Office of Secure Transportation (OST), all experience attrition, 
but, on the basis of preliminary data, there did not appear to be any 
marked differences, and we did not pursue this issue further.

                     POTENTIAL FOR A FUTURE STRIKE

    13. Senator Vitter. Mr. Podonsky, in the event of a potential 
future strike at one or more SNM I sites and in light of lessons 
learned during the security force strike at Pantex in 2007, what are 
the Department's current plans for ensuring continuity of security?
    Mr. Podonsky. From the shared DOE and NNSA perspective and based on 
lessons learned going back to the Rocky Flats protective force work 
stoppage in 1994, my office has developed and maintained a Contingency 
Protective Force guide. This document provides a model for any site 
that may have suffered a natural emergency or a protective force work 
stoppage on how to constitute a contingency protective force from 
onsite and offsite nonbargaining unit officers. This guide was utilized 
at Pantex when work stoppages occurred and at other locations while 
negotiations were ongoing but were subsequently concluded successfully. 
We ensure the document is available to the responsible line management 
organizations and that it is revised based upon lessons learned from 
each work stoppage or potential stoppage.

    14. Senator Vitter. Mr. Podonsky, does the Department foresee any 
scenarios where security at one or more sites could become an issue?
    Mr. Podonsky. DOE planners and our contractors are constantly 
attempting to identify potential vulnerabilities and seeking ways to 
mitigate them. Planning explicitly includes the security implications 
of strike contingency operations. More details or precision would 
require a separate classified submission.

 DIFFERENCES BETWEEN THE PROTECTIVE FORCE AND THE DOE SECURE TRANSPORT 
                                 FORCE

    15. Senator Vitter. Mr. Podonsky and Mr. Aloise, how do the 
protective force and the secure transport force differ?
    Mr. Podonsky. At the most basic level, the differences are that the 
protective forces are contractor employees who provide security at our 
fixed sites for special nuclear material and weapons, while the Office 
of Secure Transportation (OST) consists of Federal agents who transport 
nuclear weapons and special nuclear material on public roads around the 
United States. In addition, the Federal agents have a responsibility to 
liaise with Federal, State, and local law enforcement and intelligence 
agencies in the States through which they perform their transport 
mission. The multiplicity of jurisdictional interactions associated 
with this ``over-the-road'' mission is in direct contrast to the stable 
set of interactions required at fixed sites. Federal agent status for 
OST personnel is intended, among other things, to ensure that, in the 
event of an incident, the necessary lines of authority are clear.
    Mr. Aloise. Broadly speaking, protective forces and agents differ 
in the following respects:

------------------------------------------------------------------------
         Characteristics              OST Agents       Protective Forces
------------------------------------------------------------------------
Numbers                           363                 2,339
------------------------------------------------------------------------
Employer                          Federal employees   Contractor
                                                       employees
------------------------------------------------------------------------
Management structure              Centralized         Varies based on
                                   Federal             different
                                   management          contractors and
                                                       different
                                                       contracts
------------------------------------------------------------------------
Collective bargaining status      Cannot              Covered by
                                   collectively        different
                                   bargain             collective
                                                       bargaining
                                                       agreements (CBAs)
------------------------------------------------------------------------
Pay                               Single pay system   Varies with CBAs
------------------------------------------------------------------------
Benefits                          Federal Employee    Varies with CBA
                                   Health Benefit
                                   Program and
                                   Federal Employee
                                   Retirement
                                   System. Eligible
                                   for early
                                   retirement (at
                                   age 50 after 20
                                   years of service)
------------------------------------------------------------------------
Mission                           Mobile, public      Fixed facilities
                                   roads
------------------------------------------------------------------------


    16. Senator Vitter. Mr. Podonsky and Mr. Aloise, are the 
requirements and stresses of the secure transport force more demanding 
that those of the protective force?
    Mr. Podonsky. The requirements and stresses of the job are 
different for the Federal agents in several areas. From a personal 
standpoint, they spend substantial time away from their homes and 
families. From an operational standpoint, they do not have the natural 
advantage enjoyed by officers at fixed sites, such as fixed barriers, 
hardened fighting positions, deployed technologies, video surveillance 
and assessment, and local terrain knowledge. The secure transport force 
is also subject to the stresses of a long distance trucking operation.
    Mr. Aloise. We found that OST Federal agents' mobile mission 
differs significantly from that of protective forces that guard fixed 
sites. OST agents operate convoys of special tractor trailers and 
special escort vehicles to transport Category I SNM. These agents 
travel on U.S. highways that cross multiple Federal, State, tribal, and 
local law enforcement jurisdictions. They also travel as many as 15 
days each month. Agents may also provide security for weapons 
components that are flown on OST's small fleet of aircraft. In contrast 
to the public setting of agents' work, protective forces that guard 
Category I SNM at fixed sites typically have elaborate physical 
defenses and tightly restricted and monitored public access. As such, 
OST agents operational environment appears to be more ambiguous and 
dynamic than the environment found at Category I SNM sites.

    17. Senator Vitter. Mr. Podonsky and Mr. Aloise, is the secure 
transport force subjected to a higher level of training than the 
protective force?
    Mr. Podonsky. Yes. Federal agents must qualify under Department of 
Transportation regulations and maintain their ability to operate 18-
wheeled secure transport vehicles. Both Federal agents and contractor 
protective forces must meet the same overall firearms and fitness 
requirements but tactical training for Federal agents is dissimilar due 
to the completely different operating environments. All Federal agent 
training must address the various types of terrain (rural and urban) a 
convoy travels through. This includes force-on-force; individual, small 
unit, and convoy tactics; advanced live fire; tactical driving; 
recapture/recovery ops; and Incident Command System.
    Mr. Aloise. We found (pg. 21-22 of GAO-10-275) that OST agents 
undergo longer, more frequent, and more diverse training than do most 
protective forces. For example, OST Federal agents:

        <bullet> Undergo longer basic training (21 weeks) at OST's 
        academy in Fort Chaffee, AR;
        <bullet> Must complete requirements for a commercial drivers 
        license;
        <bullet> Are required to meet DOE's offensive combatant 
        standard throughout their careers;
        <bullet> Spend more of their time training, including tactical 
        training, than do most contractor protective forces.

    18. Senator Vitter. Mr. Podonsky and Mr. Aloise, does the notion 
that the secure transport force has to transport nuclear materials 
across State lines and in an inherently mobile fashion constitute any 
rationale for requiring that they have full Federal authorities?
    Mr. Podonsky. Yes. As discussed above, Federal agent authority must 
be transjurisdictional. The operating environment leads to the 
necessity for them to have Federal authority. They regularly interact 
with national, tribal, State, county, and local law enforcement 
authorities as well as various intelligence agencies as they seek 
knowledge of any potential threat to them and their cargoes in the 
operating environment.
    Mr. Aloise. OST officials told us that this is an important factor.

    [Whereupon, at 4:15 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
